<html>
<title> - TWO NEW SUDANS: A ROADMAP FORWARD</title>
<body><pre>[Senate Hearing 112-87]
[From the U.S. Government Publishing Office]


                                                         S. Hrg. 112-87
 
                   TWO NEW SUDANS: A ROADMAP FORWARD 

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 14, 2011

                               __________

       Printed for the use of the Committee on Foreign Relations


         Available via the World Wide Web: http://www.fdsys.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

68-225 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

















                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
BARBARA BOXER, California            RICHARD G. LUGAR, Indiana
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
CHRISTOPHER A. COONS, Delaware       JOHNNY ISAKSON, Georgia
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                MIKE LEE, Utah
              Frank G. Lowenstein, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        
















                            C O N T E N T S

                              ----------                              
                                                                   Page

Isakson, Hon. Johnny, U.S. Senator from Georgia, opening 
  statement......................................................     5
Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     3
Lyman, Hon. Princeton N., U.S. Special Envoy for Sudan, U.S. 
  Department of State, Washington, DC............................     5
    Prepared statement...........................................     9

              Additional Material Submitted for the Record

Elnail, Bishop Andudu Adam, Episcopal Bishop of the Diocese of 
  Kadugli, Sudan, prepared statement.............................    30
Enough Project, prepared statement...............................    30

                                 (iii)

  


                   TWO NEW SUDANS: A ROADMAP FORWARD

                              ----------                              


                        THURSDAY, JULY 14, 2011

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:35 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Coons, Udall, Lugar, and Isakson.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. The hearing will come to order. Thank you all 
very much for being here this morning.
    Ambassador Lyman, it is a great privilege to welcome you 
back to the committee. We appreciate enormously the work that 
you are doing as the President's Special Envoy to Sudan, and I 
want to just thank you personally.
    I've had a chance to see you working in many meetings that 
we have had together there in Sudan, and I have been 
extraordinarily impressed by your steady, calm, tireless 
commitment to working under difficult circumstances to make 
progress. It's the essence of good diplomacy, and I really 
congratulate you and thank you.
    I thank the President and the NSC and all of the folks, 
including Secretary Clinton, who have been engaged in this 
effort. They have done a terrific job of laying out a roadmap, 
living up to it, nurturing the process, and staying committed, 
when a lot of people thought it might have been impossible.
    And I know that 6 months, 9 months ago, even a year ago, 
when we were working with General Gration and yourself, there 
were a lot of doubters as to whether or not a referendum could 
ever take place. And I think that it was the good efforts of a 
lot of folks who came together and stayed steady, and our 
allies in that effort. The Norwegians, others, the British, 
have been particularly committed to this. And I think it shows 
what can happen when people stay focused and put their energy 
into things.
    So we welcome you here this morning to discuss a remarkable 
and a rare event that took place last week, the birth of a new 
nation, the Republic of South Sudan.
    Six months ago when the referendum that set this in motion 
I had the privilege of being in Juba with you, Ambassador, and 
others, and General Gration, and it was really impressive. It 
was a remarkable event. I had the privilege of speaking in the 
cathedral with President Kiir.
    Millions of southern Sudanese stood in line for hours to 
cast their votes for independence. And I remember coming out of 
one of the voting places, and I had a sense of, gosh, some of 
these people are going to walk away, their lines are so long, 
and they can't wait that long to vote. So I went up to them, 
and I said, you know, I hope you will be patient and wait to 
vote. And so help me, two or three people in good English just 
turned around to me and said, ``Senator, we have been waiting 
for 56 years. We can wait a few more hours.'' They didn't mind 
it.
    And last Saturday, as a result, 5\1/2\ decades of waiting 
came to an end. And today, even as we are here now having this 
hearing, events are taking place in New York at the United 
Nations, and South Sudan becomes the 193rd member.
    We should recognize, and I know you do, Mr. Ambassador, 
that while only one country is joining the community of 
nations, the reality is that two nations emerged on July 9--the 
newly independent South and the greatly changed North.
    Both of these nations are fragile, and they will remain 
that way until they reach an agreement that allows them to live 
separately but work together.
    Sudan and South Sudan share more than a poorly defined 
border and a bloody history. They share traditions of migration 
that must be respected. They share trade routes that need to be 
reopened. And they share a mutual interest in not merely 
avoiding a return to all-out war but in crafting a lasting and 
genuine peace.
    Abyei is at the heart of this conflict and of any lasting 
resolution. Tomorrow, international peacekeepers will begin to 
arrive there, and I hope that they can pave the way for the 
return of the tens of thousands of displaced Ngok Dinka who 
call Abyei home, and for a resolution that addresses the needs 
of the Misseriya migrants as well.
    Abyei is one crisis point. Southern Kordofan is another. 
And once again, we are hearing chilling reports of serious 
human rights abuses by government forces. There are new and 
serious allegations of mass graves, shells are falling in the 
Nuba Mountains, and people in need have been cut off from 
humanitarian relief.
    Sudan must not go down this road again. Southern Kordofan 
needs the United Nations monitoring mission, and both sides 
need to agree and abide by a cease-fire. If atrocities are 
occurring, they must stop and there must be accountability.
    Despite these grave worries, there are also positive signs. 
Sudan was the first country to recognize the South as an 
independent state. And it is worth pausing to acknowledge that 
fact, not just because it suggests hope for the relationship 
between North and South, but for the relationship between Sudan 
and the United States as well.
    Because of the successful January referendum, President 
Obama initiated a review of Sudan's designation as a state 
sponsor of terrorism. Completion of that process rests on the 
review itself, as well as the resolution of all the major 
issues outstanding from the comprehensive peace agreement, 
including Abyei. And obviously, this process will not go 
forward if gross human rights violations are taking place.
    Finally, the true transformation of the United States-
Sudanese relationship runs through Darfur.
    Khartoum needs to reject its recent return to old 
destructive patterns and recognize that reform can bring with 
it a new relationship with the international community, 
including the United States. I very much would like to see that 
happen, but wishful thinking will not bring it about. It is 
actions by the GOS that will make that happen.
    We are also entering a new relationship with South Sudan. 
Along with President Salva Kiir, we hope that July 9 will mark, 
as he said, in his words, ``a new beginning of tolerance, 
unity, and love,'' in which cultural and ethnic diversity can 
be a source of pride and strength, not parochialism and 
conflict.
    South Sudan bears the scars of wars in many forms, 
including roads, schools, and hospitals that were never built. 
They provide their own sense of permanent scarring.
    It must also overcome internal corruption and internal 
rebellions. But as they have already showed the world, the 
people of South Sudan are capable of rising to the challenge.
    America has stood with the peoples of Sudan throughout 
these struggles. We helped to broker the CPA. We have provided 
billions of dollars in humanitarian assistance. Our 
representatives, including Ambassador Lyman, are working 
tirelessly, as I said, to bring the parties together. And we 
must remain involved until there is a lasting peace in the 
region.
    I would remind people that the war that took place there 
was the longest war in Africa's history, and it cost over 2 
million lives. The last thing that we want to do is go 
backward.
    Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Thank you very much, Mr. Chairman.
    I join you in welcoming back to the committee our 
distinguished witness, who has a long record of service to our 
country and an unsurpassed depth of experience in African 
affairs.
    On July 9, 2011, the Republic of South Sudan was declared 
by its elected government to be independent of the Republic of 
Sudan. This is a rare modern milestone and one that follows 
decades of violent oppression and conflict. The people of South 
Sudan have realized their dream of independence and deserve 
recognition for the sacrifice and commitment they made to 
achieve it in the face of enormous odds.
    The people of the United States, from Government officials 
to religious and academic communities, to young citizens, have 
had a profound impact in elevating the importance of resolving 
this deadly conflict. There is a prospect for new life and 
economic and social development in South Sudan.
    Nonetheless, violence remains a real prospect for millions 
along the borders of these two newly defined countries. Each 
country's respective security forces are continuing to engage 
in the three disputed areas along their common border, and 
there remains untold suffering, scarcity, and tension within 
both countries as well.
    It falls to the leaders of each country to acknowledge the 
challenges and begin to respond fairly and clearly to the needs 
of the people and to build upon an inclusive vision of a stable 
and productive future.
    The challenges are daunting. Both Sudan and South Sudan 
represent widely diverse populations with a history of often 
violent competition. Khartoum will continue to govern many 
regions in the north that bridle at the harsh yoke of the Omar 
al-Bashir government.
    Darfur remains unresolved, a region with millions displaced 
as a result of genocide, and the eastern provinces continue to 
suffer atrocities. In South Sudan, the leaders in Juba must 
learn how to govern and empower a new country with few common 
ties other than a common enemy.
    That enemy will remain a threat, as it was through proxy 
militias during the decades of war. The prospect of civil war 
across the south looms if the oil becomes a source of 
intertribal conflict rather than the means to build a better 
country.
    Oil, the primary source of income for both countries, could 
also be a bitter disappointment if, as many experts believe, it 
is limited and diminishing. South Sudan will initially join 
Sudan near the top of the list of the world's failed states and 
both must cooperate if they are to realize the hope of leaving 
this ignominious listing.
    While the Comprehensive Peace Agreement of 2005 achieved 
the independence celebrated last weekend in Juba, there has 
been little progress in concluding the essential agreements 
between the north and south also required by the CPA, such as 
wealth-sharing and border demarcation. The new country has 
limited governance capacity, weak and nonexistent government 
institutions, and heavy reliance on outside donors. High 
capital costs limit prospects for private investment.
    These factors increase the likelihood of competition among 
ethnic tribes and diminish the odds for near-term stability and 
growth.
    While the United States should maintain its critical 
interest in a stable and productive South Sudan as well as a 
more responsible and responsive Republic of Sudan, it is 
evident these countries must begin to deliver for themselves. 
The United States has played a prominent role so far, from 
Senator Danforth's efforts at concluding the CPA to Secretary 
Powell's efforts to stop the genocide in Darfur, to Secretary 
Clinton's recent direct engagement at the U.N. on an Abyei 
peacekeeper agreement.
    Now the administration must clearly define and limit its 
responsibilities and expectations associated with a long-term 
relationship with this nascent nation. The heavy burdens that 
now fall upon the people of both Sudans should be tempered, 
when and where appropriate, by the international community.
    Neighbors like Ethiopia, Kenya and Uganda must help 
integrate the new country into the region while balancing 
emergent threats such as the approaching famine in the Horn of 
Africa and the human calamity in Darfur, which still lacks a 
viable peace process.
    I thank Ambassador Lyman for his decades of dedicated 
diplomacy. I look forward to hearing from him how the 
international community can assist in this effort across both 
Sudans and how the United States roadmap has worked to date and 
prospects for its continuation.
    I thank you very much, Mr. Chairman, for calling the 
hearing.
    The Chairman. Thanks a lot, Senator Lugar.
    Normally, we just have the openings of both the Chair and 
the ranking member, but today we are going to make an exception 
to that rule.
    Senator Isakson has taken a great interest in this area, 
this region, as well as in this issue, and he has taken time to 
travel there.
    And, therefore, it is my pleasure to recognize Senator 
Isakson for an opening.

           OPENING STATEMENT OF HON. JOHNNY ISAKSON,
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Well, I thank the Chair.
    And I want to do two things in particular. First, I want to 
thank Princeton Lyman for his dedicated service to this area 
and to this cause, and acknowledge that in the last 10 years, 
between the Bush administration and the Obama administration, 
there than five special envoys, beginning with Mr. Danforth. 
And their work really has brought about the comprehensive peace 
agreement, culminating in the peaceful election that took place 
to create the independent Nation of the South Sudan. And I 
thank you very much for your commitment to that.
    The second thing I wanted to is really acknowledge what the 
chairman said in his remarks with regard to the admonition to 
the North regarding the removal of state-sponsor of terrorism 
status. That is a process that is predicated on good behavior, 
and it is predicated on us being sure that there is no more 
violence and continuing atrocities taking place in that part of 
the world. That is an important component part of the overall 
deal that we made to bring about a peaceful election, which 
took place.
    So I thank the Chair very much for pointing that out. I 
thank Princeton Lyman for his service, and I look forward to 
his testimony today.
    The Chairman. Thanks very much, Senator Isakson.
    Mr. Ambassador, it is our pleasure to welcome you, and I 
look forward to your testimony.

 STATEMENT OF HON. PRINCETON N. LYMAN, U.S. SPECIAL ENVOY FOR 
           SUDAN, DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Lyman. Thank you very much, Chairman Kerry, 
Ranking Member Senator Lugar, two giants of leadership. It is a 
very great privilege to be here.
    Senator Isakson, who has taken such a great interest in 
Africa all the time you have been on this committee, it is 
really a privilege to be here. Thank you for the very kind 
words.
    I have to say I have never worked on an issue in which 
there has been so much sustained support from the 
administration, from the President, the Vice President, the 
National Security Council, the Secretary, this committee, 
people in the House, people in the public. It makes an 
extraordinary amount of difference.
    It's a high priority for the United States and the United 
States public and all branches of our Government, and that 
makes a tremendous difference in the work we try to do.
    So thank you very, very much for all you are doing.
    I would like to submit a full statement for the record, if 
that's all right?
    The Chairman. Without objection, it will be placed in the 
record as if read in full.
    Ambassador Lyman. Thank you.
    I agree that one of the first things to recognize is that 
one of the fundamental objectives of the comprehensive peace 
agreement was for the people of South Sudan to have a choice as 
to whether to stay within one state or separate. They were able 
to make that choice, as you pointed out, in January. And on 
July 9, they were able to achieve their independence.
    And it was an extraordinary event, and it was a privilege 
for me to be there, a very happy event. There must have been 
over 100,000 people at that ceremony, and it was quite moving.
    I think all who have been working on this for decades, 
Senator Isakson is quite correct, over many administrations, 
over many people in and out of government, they can take a 
great deal of satisfaction from what has happened in that 
regard.
    Nevertheless, as you have all pointed out, the past few 
months have not been free of conflict and they haven't been 
free of tension. The parties failed to reach agreement before 
July 9 on some of the most important issues that they face to 
have a full and productive relationship. And then we had crises 
in the disputed area of Abyei, as you pointed out, and now an 
ongoing conflict causing many deaths and abuses and displacing 
over 70,000 people in Southern Kordofan.
    We had to focus a lot of our efforts in the last few weeks 
on those two crises to keep them from derailing the entire 
peace process. So the entire relationship between the two 
countries after July 9 is going to be one that is not yet free 
of tension and not free from the threat of future conflict. The 
next few weeks will be very critical in this regard.
    They must follow through, first of all, on the agreement 
you mentioned, Senator Kerry, on Abyei, an agreement that 
allows an enhanced peacekeeping force to come into Abyei, 
mainly of Ethiopian troops, and the withdrawal of Sudanese 
Armed Forces that took over Abyei a few weeks ago.
    We can't have a political solution to Abyei while it's 
being occupied by one side militarily. That process is just 
getting underway, and it must be implemented.
    They also have not resolved one of the most important 
economic issues between them, and that is the financial 
relationships related to the oil sector. And I fear that if 
they don't come to some resolution by the end of July, we could 
have a serious confrontation over that issue. Threats from each 
side to shut down the oil flow are not helpful, and they only 
raise the specter of confrontation.
    Now this is a difficult issue for the South to deal with, 
because they see any final resolution of how to share the 
resources from oil as linked to the solution for Abyei and some 
of the other unresolved issues, and the timetables now are not 
in sync.
    So what we are urging is that by the end of July, at least 
they reach an interim agreement to keep the oil relationships 
going and set up a very firm timetable on dealing with Abyei 
and the remaining issues, like disputed border areas.
    They both face problems inside their countries, as you have 
indicated. We are very concerned about the situation in 
Southern Kordofan.
    Fighting broke out there, and as you well know, Southern 
Kordofan is a state in the North. It was heavily involved in 
the civil war. People there fought on the side of the South but 
they're from Southern Kordofan. And there are elements of the 
SPLA, the Southern People's Liberation Army, which come from 
Southern Kordofan. And the CPA calls for a political process 
called popular consultations, in which their political rights 
would be addressed, and their grievances.
    Now fighting broke out there June 5 between the Sudanese 
Armed Forces and these SPLA units. The issues are complex. They 
are political. They are security.
    We're very concerned by very critical allegations of 
targeted and ethnic-based killings and other gross human rights 
abuses. As you said, Senator Kerry, these abuses must end, 
there must be an investigation, and perpetrators held 
accountable.
    The two sides on June 28 signed a framework agreement 
covering both Southern Kordofan and Blue Nile. And it is a 
promising agreement in that it provides for talks on both the 
political and the security issues. But unfortunately, President 
Bashir has now raised objections to portions of that agreement, 
and that puts the negotiations at risk.
    Without those talks, without parallel political as well as 
security talks, the chances of ending the hostilities and 
reaching the thousands of people in need are, frankly, slim. So 
we hope these talks will resume very shortly.
    In the meanwhile, we call on the Government of Sudan, which 
so far has resisted in allowing for a U.N. presence to remain 
in Southern Kordofan and Blue Nile, because we need that 
presence not only to monitor what's happening but to help in 
humanitarian activities.
    Now, the situation in Darfur, which you have all mentioned, 
remains a very serious problem as well. This week, in fact 
probably today, the Government and one of the armed groups, the 
Liberty and Justice Movement, the LJM, are expected to sign a 
peace agreement or a protocol around the peace agreement. But 
one other major group, JEM, Justice and Equality Movement, is 
at best on the fence, and most of the others did not take part 
in the Doha peace process at all.
    What we have emphasized to the Government of Sudan is that 
signing an agreement with the LJM is a positive step, but it 
has to continue to negotiate and be ready to negotiate with the 
other armed movements. They can't say, well, now we've done it 
and the other armed movements either sign this or they're 
outside the process.
    We're also concerned that several of the other armed groups 
are not very interested in Darfur so much as they are 
interested in broad change in Sudan, and are fighting on that 
basis, which makes it almost impossible for them to come and be 
part of a Darfur-based political process. And we have urged 
them to come to the table and negotiate around the issues of 
Darfur.
    Also, to look ahead, we need to engage the people of 
Darfur. They deserve as much of a right to participate much 
more greatly in determining not only the process of peace, but 
their future.
    But the conditions aren't right yet for carrying out a 
Darfur-based political process. So we have set forth a list of 
conditions that we think are very important to create what we 
call an enabling environment, so that you can have a Darfur-
based process. It means lifting the state of emergency; it 
means freeing political prisoners; it means allowing for 
freedom of movement and expression; better for rights for 
UNAMID, et cetera. And we hope to pursue those with the A.U., 
the U.N., and the Government of Sudan in order to make it 
possible to have such a Darfur-based process.
    Now let me turn to the issue you also all raised, which is 
our relationships with the Government of Sudan in Khartoum. 
Sudan needs to end its isolation in the international 
community. It has to secure relief from an estimated $38 
billion of debt. It has to obtain access to the international 
financial institutions. It has to create an environment that 
will attract private investment.
    None of those things can happen when it's engaged in 
constant conflict and under sanctions not only from us but from 
others.
    We have told Khartoum, as you have pointed out, Senator 
Kerry, that we are prepared to help, and we've laid out a 
roadmap to normalize our bilateral relations. And the President 
followed through after the referendum on January 9 to open up 
some licenses and to initiate a process of reviewing Sudan's 
designation as a state sponsor of terrorism. And that review is 
continuing.
    But we can't move forward, as all of you have pointed out, 
with improved bilateral relations, as we have said in the 
roadmap, if the Government of Sudan does not fulfill its 
obligations from the CPA.
    And that isn't just the position of the United States. It's 
also the view of other members of the international community 
and of international creditors.
    The negotiations, of course, require readiness on the part 
of both parties to take what are often very difficult political 
decisions. So we will be working with both the NCP and the SPLF 
to encourage a commitment to reaching agreement on all 
outstanding issues as soon as possible.
    Now, South Sudan, again as you have all pointed out, faces 
enormous governance and development challenges. Antigovernment 
militia are causing havoc in parts of the country. And the 
Government needs to respond, both politically and militarily, 
to these challenges, so that legitimate local or ethnic 
grievances are not ignored.
    There is also a staggering lack of infrastructure and 
educational levels on which to build development. The 
Government of South Sudan will depend heavily on international 
support as well as its own resources to address these 
challenges.
    We have strong ties of South Sudan, and they go back many 
decades. And we are committed to continuing that partnership 
and helping them meet those challenges. But we are not going to 
be alone.
    The U.N. is inaugurating a major program helping the 
Government in a variety of areas. Other donors are coming in, 
in various aspects of economic and security assistance.
    But we've told the leaders in Juba that to succeed, they 
must work to build an effective democratic and inclusive 
government that embodies South Sudan's diversity, respects 
humans rights, and delivers services with transparency and 
accountability.
    And I'm very pleased that President Kiir in his inaugural 
address spoke to those very same issues at the ceremony in 
Juba.
    The challenges ahead are great, but the historic occasion 
last Saturday offers a new beginning for the people of both 
South Sudan and Sudan. And it's now up to the leaders and 
people of both to turn this moment of promise into lasting 
peace.
    Over the coming months, the Obama administration's 
engagement will be unwavering, and we will be a steadfast 
partner to all those in Sudan and South Sudan who seek a better 
future of peace and prosperity.
    Thank you, and I'm more than happy to answer questions. 
Thank you very much.
    [The prepared statement of Ambassador Lyman follows:]

            Prepared Statement of Ambassador Princeton Lyman

    Chairman Kerry, Ranking Member Lugar, Members of the Senate Foreign 
Relations Committee, thank you for the opportunity to be here to 
discuss the historic achievement symbolized by South Sudan's 
independence and the opportunities and challenges ahead as Sudan and 
South Sudan seek to define their future relationship with each other 
and the international community.
    I will discuss below the many tasks and challenges that lie ahead. 
But first we should recall that a fundamental objective of the 2005 
Comprehensive Peace Agreement was to provide the people of southern 
Sudan a choice whether to continue within one country or to separate. 
The people made that choice in January, voting for separation, and the 
independence of South Sudan was achieved July 9 without major conflict 
and with the recognition of the Government of Sudan. All those, in the 
Congress, among the many public organizations and advocates, the 
government entities and individuals over two administrations, all those 
who worked for this over many years should take pride and joy in this 
achievement.
    I was in Juba last Saturday for South Sudan's independence 
ceremony. It was a very moving occasion. As President Obama said in his 
statement recognizing South Sudan, the day reminded us ``that after the 
darkness of war, the light of a new dawn is possible.'' Tens of 
thousands of people endured sweltering heat for hours to celebrate the 
birth of their new nation. Sudan was the first country to recognize 
South Sudan's independence. This was a historic achievement that 
represents a new beginning for the people of South Sudan as well as 
those of Sudan.
    Mr. Chairman, this achievement was far from inevitable. Just a year 
ago, the peace process between the Government of Sudan and the Sudan 
People's Liberation Movement was stalled. Many doubted whether it would 
be possible to have an on-time, peaceful referendum for Southern Sudan 
and whether the Government of Sudan would ever accept the results. A 
return to open conflict seemed very possible.
    During that time, President Obama committed to reenergizing the 
peace effort, and since then, we have intensified our diplomatic 
engagement with the CPA parties as well as our partners in the African 
Union, IGAD, Europe and the United Nations. The President himself, the 
Vice President and his entire national security team have been involved 
in this effort around the clock. We are grateful for the support that 
this committee and you in particular, Mr. Chairman, have given to this 
effort. We also appreciate the efforts that so many Americans have made 
to keep a spotlight on the situation in Sudan.
    Over the last year, the leaders of Sudan and South Sudan have 
demonstrated their capacity to work together on the major task of 
separation and to overcome great odds in their search for peaceful 
completion of the CPA. Nevertheless, this period has also been marked 
by armed clashes along the border, a crisis in Abyei, and fighting 
currently under way in the northern state of Southern Kordofan. Several 
critical issues regarding relations between the two states that were to 
be negotiated by July 9 have not been resolved. Thus the situation 
remains fraught with serious threats to peace. The two states must work 
to rekindle the spirit of cooperation that was so evident after the 
referendum of January 9 and which was promised again by the two leaders 
in the ceremony of July 9.
    The CPA parties have made some progress in their negotiations over 
the past few months, but as I indicated above some of the most 
important issues namely oil, Abyei and citizenship remain unresolved. 
How these outstanding issues are managed over the near term will define 
the future relationship between Sudan and South Sudan. At the IGAD 
summit on July 4, President Bashir and President Kiir committed to 
continue negotiations beyond July 9. We are urging the parties to 
quickly return to the negotiating table in the coming days and set a 
firm deadline for completing this unfinished business. The parties 
should work with the support of the African Union High-Level 
Implementation Panel (AUHIP) to finalize mutually beneficial 
arrangements, in particular, oil revenues, citizenship, Abyei, and 
their shared border. Allowing these issues to linger without resolution 
for too long could destabilize the future relationship between Sudan 
and South Sudan.
    Of particular importance is the contentious issue of Abyei. After 
months of rising tensions and a buildup of forces by both sides, the 
Sudanese Armed Forces (SAF) forcefully took over the disputed area of 
Abyei in May. An estimated 100,000 people were forced to flee their 
homes. After weeks of intense negotiations, the parties signed an 
agreement on June 20 outlining temporary arrangements for Abyei, to 
include the establishment of a new U.N. peacekeeping force in Abyei and 
the redeployment of all Sudanese military forces from the area. 
Secretary of State Clinton met with the parties in Addis Ababa during 
these talks and played an important role in finalizing this deal. We 
then led efforts in the U.N. Security Council to quickly secure a 
resolution authorizing this new peacekeeping force, which will consist 
of up to 4,200 Ethiopian peacekeepers.
    The violence that flared in Abyei cannot be allowed to return and 
jeopardize the larger peace. It is critical that the parties move 
forward with genuinely implementing this agreement over the coming 
weeks as they continue to work toward a final arrangement on Abyei. The 
Ethiopian peacekeepers have begun deploying to Abyei. The SAF and Sudan 
People's Liberation Army (SPLA) must follow through with their 
commitment to withdraw their forces. Conditions must be put in place to 
allow those displaced from Abyei to voluntarily return home in safety 
and dignity as soon as possible. Enormous damage was done to homes and 
other structures in Abyei and much was looted during the SAF takeover. 
Considerable assistance will therefore be needed for those returning 
home. We are working closely with the Ethiopian peacekeeping force, the 
United Nations humanitarian agencies, and our own USAID to arrange 
support for a safe, voluntary return. At the same time, as part of 
their negotiations, the parties need to resolve Abyei's final status. 
Negotiations on this matter were delayed by the SAF takeover of the 
area and the extensive negotiations for assuring the departure of 
military forces from there. This delay was costly. It will take weeks 
for the Ethiopian forces to be fully deployed and some time for the 
displaced to feel it safe to return.
    Negotiations on the oil sector are equally important, but they must 
move on a quicker timetable. By the end of July, there has to be an 
understanding of how oil will be marketed and sold and to what extent 
the SPLM will provide some tapering off of reductions of income to the 
north. Agreement is made more difficult, however, because the SPLM does 
not want to make such a decision without final agreements on Abyei, the 
border, and perhaps some other issues. We are thus faced with 
conflicting timelines. In this situation, it is imperative that if 
there is no final resolution of oil revenue distribution, there must be 
an interim agreement by the end of July. Each side has claimed it is 
ready to shut down the oil flow if there is no agreement, positions 
that if acted upon would only hurt both sides and above all the people 
of all Sudan. Thus this issue demands action very soon.
    Mr. Chairman, beyond their negotiations with each other, Sudan and 
South Sudan must also work to establish peace within their respective 
borders. Despite their separation, both countries have significant 
diversity and must decide how they will manage that diversity over the 
coming years.
    Most immediately, we remain deeply concerned about the situation in 
the northern border state of Southern Kordofan, an area that is home to 
tens of thousands of SPLA fighters. The people of Southern Kordofan and 
Blue Nile were promised in the CPA that their political interests would 
be addressed in a process of popular consultations. Unfortunately, 
those consultations have not occurred in Southern Kordofan. Tensions 
increased in Southern Kordofan following the state's heavily contested 
elections in May. The SPLM refused to accept the results of the 
election in which the sitting Governor was declared the winner. It was 
in this atmosphere that the Government of Sudan issued an order to the 
SAF to dissolve the Joint Integrated Units and forcibly disarm SPLA 
units that remained in the state. On June 5, intense fighting broke out 
between the SAF and SPLA forces in the state. To date, the fighting has 
continued, with the SAF carrying out aerial bombardments of SPLA areas. 
We are extremely concerned by credible allegations of targeted and 
ethnic-based killings and other gross human rights abuses. These abuses 
must end, an investigation must be conducted, and perpetrators must be 
held accountable. The U.N. estimates that 73,000 people have been 
displaced by the fighting, and critical access and resupply routes for 
humanitarian agencies have been blocked.
    Negotiations over Southern Kordofan began in Ethiopia in late June 
under the auspices of the AUHIP. The Government of Sudan and the SPLM-
North signed a framework agreement on June 28 outlining new political 
and security arrangements for Southern Kordofan and Blue Nile states. 
This agreement has the advantage of calling for addressing political 
issues at the same time as security ones, which is indispensable for 
reaching an agreement to cease hostilities and lay the groundwork for a 
longer term settlement. Unfortunately, President Bashir has raised 
problems with the framework agreement, which puts negotiations at risk. 
We continue to call on the parties to return to the negotiating table, 
to recognize the need to address both political and security issues, 
and to agree on a cessation of hostilities which would allow unfettered 
humanitarian access. Despite the opposition of Khartoum, we also 
continue to call on the Government of Sudan to accept a continued U.N. 
presence in the two states of Southern Kordofan and Blue Nile to 
support a cessation of hostilities, humanitarian access, and the 
establishment of new security arrangements. We believe, and we know 
that much of the international community agrees, that it is in their 
interest to do so. The Security Council has expressed its readiness to 
authorize continued U.N. operations if Khartoum consents.
    Within Sudan, we also remain deeply concerned about the security 
and humanitarian crisis in Darfur. Clashes continue to occur in North 
and South Darfur between the Government of Sudan and an alliance of 
Darfur rebel groups, notably the Sudanese Liberation Army and the 
Justice and Equality Movement. The SAF continues to use aerial 
bombardments as well as proxy militias as part of its military strategy 
against the movements, thereby resulting in civilian casualties. 
Conflict and widespread insecurity impact the humanitarian situation 
negatively and hamper humanitarian organizations from carrying out 
their activities in the deep field. The GOS continues to obstruct 
access of U.N.-African Union peacekeepers and humanitarian 
organizations struggle to obtain visas and travel permits from the GOS, 
which undermine the effectiveness and independence of humanitarian 
efforts. We have consistently pressed the Government of Sudan to 
provide full and unfettered access for aid workers and peacekeepers, in 
order to deliver humanitarian assistance across Darfur. Our own 
humanitarian staff is only able to access Darfur with high level 
visits. Otherwise, operational access is simply not possible. Although 
there has been some limited IDP resettlement in West Darfur and a 
significant increase in seasonal IDP returns for cultivation, around 2 
million Darfuris overall remain in IDP camps. Approximately 70,000 
additional persons have been displaced since December 2010.
    We have invested considerable efforts in pushing the Government of 
Sudan and the armed movements to commit to serious negotiations in 
Doha. Two of Darfur's rebel groups, the Liberation and Justice Movement 
(LJM) and the Justice and Equality Movement (JEM) have participated in 
the Doha negotiations. The LJM may sign a peace agreement with the 
Government of Sudan this week; however LJM has little military strength 
on the ground. Negotiations between JEM and the Government of Sudan 
have been suspended since early May, and JEM is currently reconsidering 
its position on the results of the Doha process. We have emphasized to 
the Government of Sudan that an agreement with the LJM would be a 
positive step toward peace, but that it must continue to negotiate with 
the other armed movements. We also will be applying pressure on the 
nonnegotiating armed movements to return to peace talks.
    The position of the armed movements is also of concern. Several of 
them insist that they do not wish to negotiate on Darfur so much as on 
changes to the regime in Khartoum, and in some cases are determined to 
pursue that objective through fighting in and beyond Darfur. This 
position does not permit realistically peace talks with the Government 
of Sudan. We will also continue to encourage the nonnegotiating armed 
movements to return to peace talks on Darfur. While the Doha process 
has now come to an end, other venues can be developed if talks are 
possible. In this regard, we are currently consulting with the AU, the 
U.N. and our international partners on a way forward after Doha that 
builds on progress achieved in Doha and leads to a more comprehensive 
settlement.
    Any successful peace process must engage not only the armed 
movements, but also the people of Darfur. The U.N. and the AU have put 
forward the initiative of a Darfur Political Process, through which 
Darfuris would express their views on the way forward for a political 
settlement. However, we feel strongly that the current security and 
political environment would not lend itself to a credible or legitimate 
peace process in Darfur. For this reason, we will be coordinating with 
the AU and the U.N. on the necessary enabling conditions that we 
believe must be in place before the United States will support a 
Darfur-based process.
    Mr. Chairman, Sudan needs to end its isolation in the international 
community and secure a more prosperous future for its people. It has a 
historic opportunity to do so with the completion of the CPA. Sudan 
faces an uncertain economic future as it adjusts to a significant loss 
of oil revenue and continues to shoulder nearly $38 billion of debt. 
Undoubtedly, Sudan is in need of debt relief, access to the resources 
of the International Financial Institutions, and a sustainable climate 
for private investment. Provided Sudan fulfills its obligations under 
the CPA, the United States is prepared to help.
    We have laid out a roadmap to normalize our bilateral relations and 
taken initial steps in that direction. In February, following a 
successful referendum, the President began the process of reviewing 
Sudan's designation as a state sponsor of terrorism. Last month, the 
President dispatched Deputy National Security Advisor John Brennan to 
Khartoum to discuss this review and to demonstrate our commitment to 
this process. Additionally, we have been actively involved in the World 
Bank technical working group to review the process for Sudan's debt 
relief. We have also approved licenses for several American companies 
wishing to participate in agricultural development in the north.
    However, we can only move forward with improved bilateral 
relations, as outlined in the roadmap, if the Government of Sudan 
fulfills its obligations under the CPA and demonstrates its commitment 
to peace within its borders and with its neighbors. A failure to reach 
a cessation of hostilities will negatively impact this process. U.S. 
Government action to lift remaining U.S. economic sanctions and to 
request legislative assistance with the removal of applicable foreign 
assistance restrictions also will be dependent on Sudanese actions in 
Darfur. We will expect to see concrete actions on humanitarian access, 
freedom of movement for UNAMID peacekeepers, engagement in peace talks, 
an end to the use of proxy militias and targeting of civilians, and an 
improvement in justice and accountability so the reign of impunity in 
Darfur does not continue. This is not just the position of the United 
States. It is also the view of other members of the international 
community and international creditors.
    Mr. Chairman, the Government of South Sudan will also depend on 
international support as it seeks to address its many challenges. South 
Sudan has some of the lowest development indicators in the world, and 
its people have high expectations that their lives will improve with 
independence. Many of its people also remain vulnerable to the activity 
of armed militias in the border states of Unity, Jonglei, and Upper 
Nile to the North, and the Lord's Resistance Army (LRA) in the state of 
Equatoria regions to the south. The United States has provided 
significant support for South Sudan over the years, and we will remain 
a steadfast partner as South Sudan seeks to peacefully meet these 
challenges. The strong ties between our peoples go back many decades, 
and we want to continue to build on that partnership.
     Over 15 countries have offered capacity building assistance to the 
GOSS. Following the Troika development ministers' visit in May, USAID 
is working closely with the AU, U.N., ADB, EU, India, China, South 
Africa, Uganda and others to ensure that the ROSS has a viable human 
capital plan in place to build capacity for key functions in Juba and 
state governments. This builds upon the work USAID has done over the 
last 7 years in the Ministry of Finance, the Central Bank of South 
Sudan, health, education, and agriculture. USAID is working with 
partners to scale up to ensure that stop gap measure along with medium 
to long term capacities are being addressed. The United States, the 
U.N., the U.K., and other donors will focus on building a human rights 
culture throughout the GOSS, including the SPLA. All the donors will 
help in economic development. The United States plans in particular to 
make a major effort in agricultural production, which can help the vast 
majority of South Sudanese and for which there is much promise.
    To succeed and to sustain international support, the Government of 
South Sudan must demonstrate its commitment to building an effective, 
democratic and inclusive government that embodies South Sudan's 
diversity, respects human rights and delivers services with 
transparency and accountability. The eyes of the world will indeed be 
on South Sudan in the weeks and months ahead. The government must 
deliver on its commitment to a broad-based, inclusive process to write 
its permanent constitution. The government must also put in place 
safeguards to prevent corruption and avoid the pitfalls that have 
befallen many other oil-producing nations. President Kiir made a strong 
statement in his inaugural address on these very issues. The United 
States will work with other international partners to provide advice 
and support for the government to help him implement those pledges.
    Mr. Chairman and other members of the committee, the challenges 
ahead are great, but the historic occasion last Saturday offers a new 
beginning for the people of South Sudan and Sudan. Now it is up to the 
leaders and people of South Sudan and Sudan to turn this moment of 
promise into lasting peace. We will continue to assist them in this 
hard work. Over the coming months, the Obama administration's 
engagement will be unwavering, and we will be a steadfast partner to 
all those in Sudan and South Sudan who seek a better future of peace 
and prosperity.

    The Chairman. Thank you very much, Mr. Ambassador. That was 
very helpful and very comprehensive. I appreciate it.
    Let me begin by asking you on the Southern Kordofan issue, 
first of all, do you have any evidence at this point or hard 
information with respect to the scale of the abuses?
    Ambassador Lyman. I don't have hard information on the 
scale, but it's very credible allegations of very gross human 
rights abuses.
    Let me say something more about this, because I have raised 
with the Sudan Government. They have a pattern of fighting 
their wars in a way that invites gross violations of human 
rights. We've seen this historically, and we saw it in Abyei, 
and we are now seeing it in Southern Kordofan. The army comes 
in and then is followed by and supports militias, the people's 
defense forces, the PDFs, and other groups, who come in and 
loot and kill, and do all of these things.
    And I said to the Government of Sudan, this is not the way 
an army in the 21st century fights wars. There are human rights 
principles, and they don't follow them. And as long as they do 
that, they are always going to be subject to the harshest 
criticism and sanctions for what happens. This is not the way 
to fight a war, even when you're fighting a war.
    Now what's happening in Southern Kordofan is that it has 
raised some very fundamental issues for both sides, fundamental 
political issues, because what the political issues in Southern 
Kordofan and Blue Nile raise, and in Darfur, is how is the 
Government of Sudan going to be structured and operated now 
with the secession of the South. Is it going to be a government 
that recognizes diversity, that decentralizes authority and 
opportunities for wealth, or is it going to be highly 
centralized and trying to force these issues? That is what is 
really issues raised in Southern Kordofan.
    For the SPLM there, headed by the former deputy governor, 
Abdul Aziz, these are the fundamental issues they fought for 
during the civil war. They're not prepared to be disarmed or 
have their forces integrated into a single Sudanese Army until 
they know these political issues are being addressed.
    The other side, the Government, says, wait a minute, we 
can't have two armies in one country, so we have to disarm you 
first. And that's not tenable in this situation.
    That's why the agreement that they signed to deal with the 
political issues as well as the security issues was so 
critical. And we've got to get them back to that agreement, and 
to get those talks underway. Otherwise, we're not going to get 
either side to agree to a cessation of hostilities and be able 
to open up the door to humanitarian aid.
    The Chairman. You're talking about the SPLM-North.
    Ambassador Lyman. Right.
    The Chairman. The Kadugli agreement.
    Well, Mr. Ambassador, to whatever degree that it is 
helpful, and since I have relationships with a lot of those 
folks built over these last few years, I hope you will convey--
and I will be speaking, actually, with President Kiir later 
this morning. But I think it's important to log some calls to 
the North also, to emphasize that everything that was talked 
about in the roadmap and all of the transitional components 
that they are hopeful can be affected as we go forward, with 
respect to their economy and debt in the future, depend on, as 
you said and we said, but I want to reemphasize it, it depends 
on their behavior and what happens in these next weeks and 
months in terms of accountability.
    And so I hope, to the degree they're listening to this 
hearing or to any of our other comments, it's not a matter of 
dictation; it's a matter of living up to international 
standards of behavior and their promises, their own promises.
    So this is going to be a critical component of their own 
ability to succeed. I know there's a lot of turmoil in the NCP, 
a lot of questions about the future politics of the North, 
which is why I mention that they are also a new nation now. 
They're going to have to figure out a constitution and other 
components that meet with this new situation.
    But we will back you up, and I want them to know that, to 
the nth degree in your efforts to create accountability here 
and to move us to a new standard. And I think that is 
absolutely critical.
    Ambassador Lyman. Thank you.
    The Chairman. Do you have any sense of how rapidly or where 
we would stand with respect to getting a cease-fire, restoring 
a monitoring presence, or perhaps reestablishing humanitarian 
aid?
    Ambassador Lyman. I wish I could be more optimistic on 
this, Senator, quite frankly, because I have talked extensively 
to both sides on this. I've talked to Abdul Aziz. I've talked 
to Malik Agaar, the leader of the SPLM-North. I've talked with 
the Government about it.
    I think until we get those political talks going, it's 
going to be hard for them to agree on the security side.
    Now, what we have pressed for----
    The Chairman. Until you get?
    Ambassador Lyman. Until we get political talks or a process 
going, it's going to be very hard.
    And they differ with how to deal even with a cease-fire or 
the security side.
    What we have pressed hard for is, on the humanitarian 
front, that they have got to allow for more help for the people 
who are being killed, displaced, et cetera. And so one of the 
things we have proposed is how about a humanitarian pause, a 
72-hour pause. That has happened in other conflict situations, 
where you can get in food, get in medicine. Both sides have 
said they are open to that. We are going to kind of press that, 
if they can't reach a broader cessation of hostility agreement.
    But I'm hoping that the talks are going to start very soon, 
and that they clarify these objections to the framework 
agreement and get started. And we'll continue to press on that, 
and particularly if we can't get a longer cessation of 
hostilities, try and get a period where we can get help to the 
people who need it.
    The Chairman. Do you believe that among the leaders in the 
North, there may be any doubts or reservations about how the 
United States may behave here? Are our cards on the table 
sufficiently? Do they have confidence in the roadmap still, I 
guess as a way to say it?
    Ambassador Lyman. I think there are elements in the 
Government who do not have confidence in the roadmap. Every 
once in a while, we hear that publicly. I hear it a lot 
privately, because they think we've moved the goalposts or they 
accuse us of moving goalposts. And there's a coterie of people 
who continue to argue inside the Government that don't trust 
the United States, don't base your policies on that roadmap, et 
cetera.
    But I think we have made some progress in that regard. And 
we have stuck to the roadmap, we have not added new conditions. 
You've made it very clear, as you said in your opening 
statement and subsequently, the conditions were the same ones 
that you talked to when you came out.
    And we have done our part, and they've got to do theirs. So 
we keep making that point. I think more and more, there are 
people in the Government who do realize it. But it's still an 
argument inside the Government, ``Oh, the U.S. will never do 
this.'' And it becomes an excuse, if you will, for them 
following other policies.
    The Chairman. I think you made an important point that we 
need to think more about and perhaps examine more here, and 
that's the Doha process and the Darfur issue itself.
    I gather that even this morning, it is possible that they 
may have signed that agreement in Doha. Do you know if they 
did?
    Ambassador Lyman. You know, I haven't had a report. It was 
supposed to be 4 o'clock their time.
    The Chairman. Right.
    Ambassador Lyman. Forgive me, I was just told they didn't 
sign. I knew there were some outstanding issues still.
    The Chairman. If they did sign it, or when they do sign, if 
they contemplate signing, it still leaves us with the same 
problem, and that's an important one, which is that JEM and two 
major factions of the SLA, the Abdul Wahid and the Minni Minawi 
factions, are not there. And as you appropriately stated, they 
have a different agenda. And I think we all are going to have 
to think carefully about how you measure it.
    One of the things I heard repeatedly from people over there 
is, look, you can't hold us to the Darfur Accountability Act, 
which requires a complete settlement in Darfur before you do 
certain things with us, if the players in Darfur aren't 
choosing to be part of the process. And if their goal is our 
overthrow, that is different from the struggle that took place 
in terms of the genocide in the 2000s; 2004 and 2005.
    And I think that's, frankly, a legitimate position. I think 
it is fair to say that if those groups have a different agenda, 
and they're behaving differently, and they're going to do their 
own thing, not to mention some of the other groups which are 
kind of criminal enterprises, to put it bluntly, I think we 
have to think very carefully about the makeup of those groups.
    I wonder if you would comment on that.
    Ambassador Lyman. Senator, it is exactly as you say, and we 
have said to those groups very candidly that you can't expect 
the government to come to the table to talk about your 
overthrowing the regime. And we said something else. We said if 
you're interested in change in Sudan, why don't you demonstrate 
that by getting change in Darfur and becoming a political part 
of the process. And we've pressed them very hard on this.
    I think they are also, some of them, watching as to what 
happens in Southern Kordofan, and between the North and the 
South as to whether there is going to be a great deal of 
instability, and how that affects their calculations.
    So I think if we're successful in containing the situation 
in Southern Kordofan, improving the North-South relations, it 
may help change the calculations as to where they should go.
    But we've been very clear on that. And you're right, the 
government has a legitimate complaint, if these groups are not 
prepared to talk about Darfur and engage in a peace process. So 
we will continue to press them on that, and your point is 
quite, quite valid.
    The Chairman. Senator Lugar.
    Senator Lugar. Thank you, Mr. Chairman.
    I want to ask you to discuss for just a moment the role of 
the United States as we go forward, not only in the Republic of 
South Sudan but also in the Republic of Sudan, including Darfur 
and the three contested areas, in this respect: Will the 
international community join us in large measure, or will the 
United States again be the default lead donor in stabilization 
and nation-building efforts?
    Furthermore, if your response is that the international 
community will join, can you identify some of the players? 
Which countries are likely to be involved in joining with us or 
already have, for that matter?
    This is of considerable interest, I think, to many 
Americans who take a look at the challenges ahead and 
understand our interests in a humanitarian way, but also ask 
who else in the world will provide assistance.
    So, describe if you can, that context.
    Ambassador Lyman. Oh, I'm glad you raised that, Senator.
    Up to now, we've had a large degree of international 
involvement. Other donors have contributed roughly $700 million 
a year to Southern Sudan and humanitarian activities in Sudan. 
Of course, others carry three quarters of the peacekeeping 
budgets for UNAMID, for the new mission in the South, for the 
new mission in Abyei.
    But I want to take it to another point that you mentioned, 
because I just met, before I left Khartoum, with the 
representatives of most of the European countries, and we were 
asking that very question. How should we organize ourselves now 
when the CPA is formally over even though the issues, several 
issues, remain? How should we organize ourselves now to 
continue to have a major role in bringing about peaceful 
resolution of these issues?
    And we're talking about a number of ideas of how to create 
or re-create, if you will, this kind of group of international 
companies, all of which committed to this peace process.
    We also have the African Union, of course. It has the 
mandate to oversee the negotiations on North-South, and we work 
very closely with Thabo Mbeki and his colleagues on that.
    But we need to think now in this new situation exactly how 
to do that. And I'll come back to you, because we've agreed to 
think altogether about this, get together again in a couple of 
weeks, and think about exactly that: How do we keep up not just 
the donor program, all of which are very important, but 
politically, how do we act together in the consistent way on 
the issues we've been just talking about?
    Senator Lugar. It may be obvious to all of us listening 
today, but underline why it is important that indeed the 
international community, as opposed to just the United States, 
play a key role here. Additionally, please describe the 
feelings in the North, the South, and Darfur with regard to 
international participation.
    Ambassador Lyman. Well, it's very important, and others 
have special contributions to make that are extremely 
important.
    The British have played a major role in security sector 
reform in the South. They have connections in the North that we 
don't have, that we can draw on. The Dutch are extremely 
knowledgeable about all the Arab tribes along the border. The 
Norwegians play a major role in sorting out the issues of oil 
and advising both sides how to treat the oil sector. The E.U. 
has its own set of sanctions, its own set of responsibilities.
    And so working together, it reinforces the political impact 
that we can all have, and also, of course, sharing the burden 
of resources.
    I want to mention two other countries that play a major 
role, and that's China and Russia. And I've been in touch with 
both of them about their role.
    China, as you now, is a major investor in the oil sector in 
Sudan. And we have urged them to play a very important role on 
issues with President Bashir and others on Southern Kordofan, 
on resolving the issues on oil.
    Now China understands that they have important investments 
in both the North and the South, because the oil industry in 
which they're heavily invested is in both the North and South.
    So they are picking up rapidly their relations in the 
South, and stability becomes very important to them. So we look 
to them to play a very important role in this regard.
    I met yesterday with the Deputy Foreign Minister from 
Russia, because although they are not as heavily invested, 
they're arms suppliers to Sudan. They're, of course, a member 
of the P5, and how they play their role with us in the Security 
Council is extremely important.
    So getting them as well as our Western European friends on 
the same wavelength becomes very important, so that the 
messages that various parties are receiving in Khartoum are 
consistent.
    Senator Lugar. You specifically mentioned China. I would 
note that a good number of Americans have observed that 
throughout all the problems in Darfur, with the charge of 
genocide and crimes against humanity by the government of 
President al-Bashir duplicating their behavior in the south, 
China has certainly realized that some very bad things were 
happening, but obtaining oil from Sudan remained its first 
priority. This priority was perceived as so dominant that, 
despite diplomatic overtures by the United States or others', 
the Chinese were not particularly forthcoming.
    What is likely to change in the current situation?
    Ambassador Lyman. Well, I think two things: One, the 
emergence of South Sudan as independent country, which has 75 
percent of the oil. So if oil is one of their interests, than 
having not only a positive relationship with South Sudan but 
also stability and no confrontations over oil, no turning off 
the pipeline or turning off the oil-pumping center, which each 
side would do, might do, in a confrontation.
    And it also means they have to balance their relationships 
in Khartoum and Juba. They're not inclined to trade one for 
another, but they do realize that they need to have good 
relations with both. And that gives them a stake in seeing some 
of these conflicts resolved and not having instability or 
conflict between the two. And we talk about that a lot 
together.
    Senator Lugar. Last year the United States spent 
approximately $1.5 billion, including $\1/2\ billion for 
peacekeeping, in the Sudan. What is your estimate on whether 
there will be requests by the administration for more than $1.5 
billion in the coming year?
    Can you give us any benchmarks? Our whole budgetary 
situation, as you recall, is tense elsewhere, but Sudan is 
important. What would you predict in this area?
    Ambassador Lyman. Well, I realize that we have one of the 
largest combination of peacekeeping operations in Sudan as 
anyplace in the world. We have the combined U.N.-EU force in 
Darfur, and we have a new mission in South Sudan, which is not 
so much peacekeeping. It's partly peacekeeping, but it's a lot 
of assistance to creating a viable government and system in the 
South. And now we have the special force an Abyei, without 
which we would not have been able to get the Sudanese Armed 
Forces to withdraw.
    I don't see any major additional activities. The Government 
of Sudan has said we don't want a continuation of the U.N. in 
the North. But there is a role and not a heavy role in helping 
monitor the border that is under discussion. But it's not 
another big mission, et cetera.
    So I don't see any major new mission requirements. But I 
can't say that the ones we have will diminish in the near 
future until some of these big issues are resolved.
    Senator Lugar. Thank you very much.
    The Chairman. Thank you, Senator Lugar.
    Senator Isakson.
    Excuse me--Senator Isakson, and then we'll go to Senator 
Udall.
    Senator Isakson. Thank you, Mr. Chairman. I'll be brief.
    My impression when I was in Khartoum, as far as their view 
of Darfur, was they were pretty much content to fight a 
surrogate war in Darfur, because it was far enough removed from 
Khartoum where they didn't feel any real pressure to do so.
    But you made an interesting comment a second ago, talking 
about how the JEM and the SLA are watching Southern Kordofan 
and what is happening there. Because of its proximity 
geographically, if the North continues the alleged or apparent 
atrocities that we have had some evidence of from satellites 
and others, that changes that paradigm a lot and runs a greater 
risk of a new war in the North, does it not?
    Ambassador Lyman. That's exactly the risk, and it's exactly 
the one that the Government needs to avoid.
    They don't want a war in the North. They complain about 
what they think is an attempt to create a new, as I say, a new 
CPA between the southern part of Sudan and the rest of it. But 
the fact is that if they don't address those basic political 
issues in Southern Kordofan and Blue Nile and Darfur, et 
cetera, they will have problems, serious problems in Southern 
Kordofan and Darfur, armed problems.
    So, yes, these are linked. They are linked in the sense 
that the Government in Khartoum--and they've said as much--
needs to think through what kind of a new constitution they 
need, what kind of a new political set of relationships they 
need. But they haven't indicated just exactly where they're 
coming out, and they're being challenged forcefully to make 
those decisions, and hopefully not make them with just a 
military response.
    Senator Isakson. So the North, which is interested in self-
preservation first and foremost, in terms of the Government, 
runs a risk if they continue in Southern Kordofan, first with 
the removal from state sponsor of terrorism, because if they 
continue, that will be a violation of that, plus they run a 
risk of an expansion of hostilities against them. Is that not 
correct?
    Ambassador Lyman. That is really a very major risk.
    Senator Isakson. Hopefully that will be a motivating factor 
for them to improve.
    Ambassador Lyman. I hope so.
    Senator Isakson. Have they done better with NGOs in Darfur? 
I know there was a lot of manipulation of visas and entrance in 
and out.
    Ambassador Lyman. It's very uneven. It's still not fully 
satisfactory. UNAMID has better access than it had before, but 
it's not perfect.
    We still run into some problems with the NGOs, and it's one 
of those conditions, as we said, for having a Darfur-based 
political process, because it reflects a lack of openness and 
movement. So we continue to work on those all the time.
    Senator Isakson. So the number you mentioned, the 
conditions aren't right yet for a Darfur agreement. The main 
condition is that Khartoum is not ready to be a player in doing 
that. Is that correct?
    Ambassador Lyman. I think Khartoum is not yet ready to 
create an atmosphere of real freedom inside Darfur, so you 
could have a real political process there.
    We've had occasions in the past where people speak up and 
then they are arrested. They just released some political 
prisoners yesterday, but there are more.
    So people have to feel that if they speak out in some kind 
of a domestic political process, they're not going to be 
harassed or jailed or something. And that's something you don't 
just do overnight. You prove it by creating an atmosphere that 
people can watch it and see it happen. But we don't have that 
yet. They have to lift the state of emergency. They said they 
will. We'll see.
    But until you have that environment, it's hard to say you 
can have a really effective Darfur-based political process.
    Senator Isakson. They are somewhat masters of their own 
destiny, if they just wake up and realize that.
    Ambassador Lyman. They are. They are. I mean, they have 
these armed movements who are fighting. But they have a lot of 
opportunity to create an environment that is very different in 
Darfur.
    Senator Isakson. Well, as I said in my opening remarks, 
thank you very much for your service and thanks for being here 
today.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Isakson.
    Senator Udall.
    Senator Udall. Thank you, Senator Kerry.
    And I also want to thank you, Ambassador Lyman, for your 
service.
    South Sudan, one of the critical issues is education. And 
as you're very, very aware, it's one of the least educated 
countries in the world, with one of the highest rates of 
illiteracy. I am wondering, are there any plans to increase the 
amount of U.S. volunteers to go to South Sudan? Would it help 
our relations and strengthen our relationship with them by 
encouraging young Americans to volunteer to help teach the next 
generation?
    Ambassador Lyman. Senator, I'm glad you raised that, 
because you're exactly right. It's one of the highest 
illiteracy rates, and it's going to be a major drag on 
development.
    We do have a lot of NGOs and a lot of church-related 
activity, including Sudanese churches, which are providing the 
bulk of health and education services right now.
    We have had some discussion of whether we can bring the 
Peace Corps to South Sudan. You have to be sure that the living 
conditions are possible and the other things there, so we'll 
look at that and other ways for NGOs and young people to 
volunteer, because I think there's a real opportunity.
    One of the areas is that teachers who are coming back to 
South Sudan from the North have been teaching in Arabic. And so 
English language training is going to be very important, even 
for teachers who are trained as teachers, but need now to 
operate in the South where Arabic is not going to be the major 
language.
    So there are a lot of opportunities of the kinds that you 
mentioned. And we'll pursue them, and I'll let you know what 
happens there.
    Senator Udall. You mentioned the Peace Corps. Are you doing 
an evaluation to see if the conditions are right to have the 
Peace Corps there?
    Ambassador Lyman. There've been some discussions of it, and 
I'll check with the Peace Corps what the next plan is. Of 
course, we had to wait until the South was independent.
    But I'll check with the Peace Corps and see what their 
current thinking was. One of our Peace Corps officials, Dick 
Day, was in fact at the ceremony in Juba, so there's been some 
discussion back and forth, and I'll check on what the status 
is.
    Senator Udall. You mentioned the lack of education being a 
drag on development. One of the other issues is this issue of 
sustainability and land use and those kinds of use of natural 
resources.
    And I'm wondering what we're doing as a country to ensure 
that sustainable development practices are put in place, so 
that there will be cropland there viable for future 
generations.
    Ambassador Lyman. Well, we have been fortunate, and I 
appreciate the congressional support on this. We have been able 
to draw on the Bureau in the Department, the Conflict 
Reconstruction and Stability, the CRS Bureau, to provide a lot 
of the surge capacity for the African Bureau to deal with the 
Sudan.
    And one of the things that they have been doing is 
providing expert teams that go out to all the states in the 
South and look at what are the issues out in those areas. Land 
is an important issue, land ownership, land management, et 
cetera, especially as hundreds of thousands of people who had 
left the South are coming back. Local corruption questions are 
important.
    And that information is leading us and the U.N. to 
structure our programs to reach out to the state and county 
level, and urge the Government to deal with those issues out 
there because those could be sources not only of injustice but 
of instability.
    So issues of land, issues of access, opportunities, et 
cetera, these are important issues. And we're getting a handle 
on them, and we're trying to build up the capacity of the 
Government to deal with it.
    Senator Udall. And then also, I think infrastructure is 
currently lacking in South Sudan. And if South Sudan is going 
to achieve some economic freedom, then it will need to be able 
to bring goods to market. What needs to be done to improve 
transportation and to create the infrastructure needed so that 
farmers can sell their crops outside the country?
    Ambassador Lyman. When you fly over South Sudan, you don't 
see hardly any roads. The USA is building a major road down to 
the Uganda border and a couple other roads. But we're hoping 
other donors are going to come in more heavily on 
infrastructure. We're going to do a lot on agriculture and 
health and education.
    But we're hoping the World Bank will come in heavily, the 
Chinese, and others, because exactly right: We're going to do a 
lot in agriculture, but if there are no roads for people to 
market their commodities, it won't have the right result.
    So we're going to look to other donors to do more in the 
infrastructure area.
    Senator Udall. Great. Thank you very much, and thank you 
for your service again.
    And I see Senator Coons is here, so I will yield my time.
    Senator Coons. Thank you, Senator Udall.
    Senator Lugar, I'd also like to thank Chairman Kerry as 
well as Senator Lugar for their leadership.
    And I join my colleagues in thanking Ambassador Lyman and 
all the dedicated people who have worked so hard to make South 
Sudan achieve independence.
    Less than a year ago, it looked unlikely that independence 
day would ever come for South Sudan, and it not only came, it 
came on time, and through a peaceful and free and fair 
referendum.
    And while we all celebrate the establishment of South Sudan 
as the 54th nation in Africa, I remain concerned, as I know 
many of my colleagues do, about the path forward, particularly 
the North-South border and in Darfur. And that's why Senators 
Isakson, Durbin, Wicker, and I will soon introduce a resolution 
welcoming independence and congratulating the people of South 
Sudan, and calling on the governments of both Sudan and South 
Sudan to peacefully resolve the many outstanding issues, 
including final status of Abyei, division of oil revenues, 
citizenship, and the current, as you detailed, very troubling 
conflict in South Kordofan.
    The recent violence in Abyei and Southern Kordofan, and the 
displacement of many, many people, remind us of the very real 
human toll of conflict. And that's why both the international 
community and the United States, in my view, must continue 
their sustained efforts to urge peaceful resolution to the 
difficult, ongoing challenges that South Sudan will face in 
order to become a stable and peaceful nation.
    I know, Ambassador, you already discussed the current 
situation in Abyei, but I'd be interested in what you believe 
to be the outlook for a final agreement or referendum, and I 
would be interested in what became of President Mbeki's plan.
    He and I met, and we discussed this a number of months ago. 
What became of his proposal on Abyei that would, I had hoped, 
have the backing of the international community?
    Ambassador Lyman. Thank you, Senator.
    What happened is that, as you know, Thabo Mbeki, as part of 
this A.U. high-level panel, was to develop a proposal back to 
the two Presidents on Abyei. And our timetable got derailed by 
the military takeover of Abyei. And even though the government 
said, ``Well, we can have a political solution while we're 
occupying it,'' nobody felt that that was a situation that was 
tenable. So we were diverted, basically, and lost weeks in 
working through a way for the withdrawal of Sudanese troops and 
introducing peacekeepers.
    The feeling now is we've got to get those peacekeepers 
there, the Sudanese troops out, and begin to get the displaced, 
which is about 100,000 people, back in. And then that will be a 
better atmosphere for bringing a final solution idea to the 
table.
    And unfortunately, what that does is delay this for weeks 
and maybe a couple months. I'm very bothered by that, but I 
understand the logic of it. And it impacts on the other 
negotiations, resolving the oil issues, et cetera.
    But the advice of most of the people working on this, 
people who are close to it, and I've talked to people on both 
sides and others involved, is we need to make sure that Abyei 
is demilitarized and that people feel safe, and then we can 
deal with this issue.
    So it's been delayed, and I'm bothered by it. And that's 
why I said earlier I think we ought to have a very firm 
timetable for addressing it, because otherwise it just lingers 
as a source of conflict.
    Senator Coons. You mentioned the peacekeeping mission. 
There's actually, if I understand correctly, three distinct 
peacekeeping missions across a very wide area.
    Ambassador Lyman. Right.
    Senator Coons. And I'm concerned about coordination, 
sustainability, the quality of the troops in some of the 
peacekeeping missions.
    What sort of work is being done to coordinate around supply 
lines, logistics, the quality and sustainability of the troops 
engaged? And for how long do you think they might continue 
operations or continue to be necessary?
    Ambassador Lyman. This is an issue where our colleagues in 
the U.S.-U.N. have been very concerned about as well. We have 
three different missions right now.
    There is talk of creating a special envoy who will work on 
some of these issues from the U.N. It hasn't been finalized, 
but it's one way to try and have someone who is dealing with 
all of that. But I think right now we're going to have to rely 
on the leadership in the U.N. on the ground to do this.
    The peacekeeping operation going into Abyei responds to a 
point you just made, that is the effectiveness of peacekeeping 
operations. The peacekeeping operation that was in Abyei was 
not effective. If it had been, we might not have had the crisis 
we had.
    So we turn to a country we knew would put in peacekeepers 
who would carry out their mandate vigorously, and that's the 
Ethiopians. But it took us a long time to work that out.
    And I think they're going to be there for at least months 
and maybe longer until we get a resolution.
    The mission in the South is a big mission. It's going to be 
there for a while. UNAMID, if we can get Darfur settled, that 
will be wonderful, but that's going to take some time.
    So I can't honestly put a timetable on when these missions 
will end. But I think this issue of coordination is very much 
on the mind of the U.N. and our U.S.-U.N. people. And as they 
work that through more, I will get back to you on some of their 
ideas on it.
    Senator Coons. And last, I know you already addressed, in 
response to Senator Lugar, some concerns about China and their 
role. But I would be interested in whether you can elaborate on 
where you see the interests of the United States and China 
overlapping with regards to Sudan and South Sudan, and are 
there examples of China playing a constructive role?
    What advice would you have for us? We're going to have a 
hearing on the role of China in Africa within the next few 
months, and I'm concerned about better understanding what 
constructive role they might be able to play or be asked to 
play in South Sudan.
    Ambassador Lyman. Well, I think China is already a vigorous 
player in Africa. They've got important commercial as well as 
political interests. Some of them correspond and overlap with 
ours. Sometimes we're in competition.
    In Sudan, I think it took a long time before we got on the 
same page on Darfur; a long time. But now, as I mentioned 
earlier, now that South Sudan is independent, they have a stake 
in resolving the oil issues and stability, and having a good 
relationship with both.
    I expect them to develop a fairly substantial presence in 
South Sudan. I'm hoping they will contribute to the 
infrastructure areas as well as other training. We look to 
them, and we've discussed this together with the Chinese, in 
their contacts with President Bashir and others in the North to 
press hard for the points we were just discussing earlier about 
resolving issues like Southern Kordofan differently.
    The Chinese and the Russians stood with us in the P5 and in 
the U.N. Security Council to urge the North to keep a U.N. 
presence in Southern Kordofan and Blue Nile.
    So I think we're getting closer with them, in terms of 
shared interest there. And I think that's an opportunity for us 
to see them making an even bigger contribution.
    Senator Coons. Thank you very much, Ambassador. Thank you 
for your service as well.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Ambassador, our relationship right now 
with the North, with Sudan, is both caught up and controlled 
by, as you know, a number of overlapping laws that have been 
passed over the course of about 10 years. But obviously, as of 
last Saturday, the map has been completely redrawn.
    In looking at the map, I see that you are currently able to 
do certain kinds of work in Darfur, South Kordofan, and Blue 
Nile. But you're not allowed to do it along the rest of the 
border.
    But obviously, the relations between Sudan and South Sudan 
aren't limited to those areas now. And particularly, there's 
this cuteness of delivery I think on our part, both to the 
South and the North, to South Sudan and the North.
    So my question is, as you know, our staff has been working 
on trying to figure out how we might adjust some of these laws, 
which I think personally it is important to do for a lot of 
different reasons, not the least of which I think we're 
constrained in our ability to deliver to the North unless we 
do.
    So would you comment on whether or not you think it would 
be helpful, for instance, for you to have the legal authority 
to work on a peace empowerment zone that stretches across the 
entire border, rather than have certain sections carved out the 
way it is now?
    Ambassador Lyman. There's a lot of attraction to that idea, 
Senator, because the border area is where a very large portion 
of the population on both sides live, and there are a number of 
flashpoints there. There are some disputed border areas. There 
is going to be questions of crossing borders of mutual 
development, et cetera.
    And I think it's an area where we can make a significant 
contribution. If we had the ability to work wherever we 
thought, that would help alleviate both pressures and real 
humanitarian needs. I think it would be wise.
    The Chairman. Can you share with us sort of a sense of the 
kind of projects that you think might facilitate a more lasting 
peace?
    Ambassador Lyman. I think, you know, part of the tension 
that arises is in the migration from North to South, access to 
water, access to pasturage, et cetera.
    What we had talked about in some cases, can you get joint 
development zones that transit North and South that would make 
people comfortable that everybody is developing equally from 
that kind of development? You would also ease some of the 
migration pressures, if you could develop better some of the 
pasturage and water above the line. We see that in Abyei and 
Southern Kordofan.
    So those things would help alleviate some of the tension 
but I think equally important build cooperation, because you 
really want on the border cooperation between the governors on 
each side. And a lot of the governors are very interested in 
this. And perhaps programs that facilitated that, as well as 
conflict resolution, could be useful.
    The Chairman. What about legal authority to work in an area 
like food security or on democracy projects?
    Ambassador Lyman. Well, I think on food security, I think 
Sudan, the Government of Sudan, is going to face a lot of very 
difficult economic challenges. They're losing a lot of their 
oil income. But I think as somebody, maybe it was Senator 
Isakson, mentioned, or maybe it was you, Senator Lugar, that 
the oil doesn't last that long anyway. The Norwegians predict a 
sharp decline for both.
    So the adjustment, the economic adjustments are going to be 
great. And food production is one of Sudan's great potentials, 
if they would invest in it.
    Now, I think that our readiness and willingness to do so 
should, however, reflect the political relationship and their 
fulfillment of major issues like CPA and Southern Kordofan. But 
I think opening that possibility up is important for the people 
in Sudan, and it will be important for everyone because of the 
trade.
    The Chairman. Might we not provide you with some leverage 
in negotiation?
    Ambassador Lyman. I think it would be important in terms of 
demonstrating something we've tried to say over and over again, 
which is it's in the interest of the United States to see two 
viable, successful states. Without that, there's not going to 
be stability in either one. And that we don't want Sudan, 
northern Sudan, to be in deep economic trouble anymore than we 
want southern Sudan to be.
    So, yes, I think it sends an important message to say that 
if you are moving in this direction, coming back into the 
international community, we're very serious about the people of 
your country not going into economic turmoil.
    The Chairman. Well, let's assume that you get an agreement, 
ultimately a sort of grand bargain that addresses Abyei, the 
borders, the other critical issues, including the apportionment 
of debt, would you not need some kind of legal change here or 
redress, in order to be able to address the issue of debt 
relief?
    Ambassador Lyman. There are very clear restrictions, as you 
know, in the legislation on that. Debt relief is an 
extraordinarily important issue for the Government of Sudan, 
because under the agreement they have with the South, they have 
taken on the full burden of that $38 billion of debt on the 
conditions that the international community will eventually 
afford them debt relief and the South will support them in that 
politically.
    I think as we move forward, the President will need an 
understanding with Congress about those restrictions. Right 
now, it's in a technical mode. That is, the World Bank is doing 
what they have to do, which is to gather all the detailed 
knowledge of the loans and reconcile the records of the 
creditors and noncreditors. But after that, it will start to 
move into serious----
    The Chairman. We need discussion. We need to address it, 
bottom line.
    Ambassador Lyman. I think it's going to be important.
    The Chairman. OK.
    Just a couple quick other questions. How would you say 
South Sudan Government is doing right now in terms of 
prioritizing its own governance agenda, its development agenda?
    Ambassador Lyman. I think it's really still in very early 
stages. The USA is going to sponsor a conference here in 
September in which they are--it's not a donors conference, it's 
not a pledging conference. It's a conference for them to come 
and present exactly that: What are their priorities in 
governance and development, and how can the private as well as 
public sector help?
    But I think they're at early stages. They have really been 
focused so heavily on becoming independent. They are really 
moving from being a liberation army to being a government. And 
that transition isn't entirely complete.
    They have to engage in a new constitution. They have an 
interim constitution. But they need to develop a constitution 
that brings much, much more popular participation into the 
process.
    So I would say they're at early stages on a lot of those 
things and will need a lot of encouragement and help.
    The Chairman. You mentioned the question of the army and 
its own transition. I guess they have a force of about 140,000 
soldiers. But they've incorporated within those ranks a number 
of different armed groups. So my question is, I mean I don't 
think that's sustainable for the long term, both politically 
and otherwise, so what should their priority be for security 
reform? And how can we have an impact, or should we have an 
impact, with respect to that?
    Ambassador Lyman. One of the ways in which they deal with 
some of these militia is to bring them in and incorporate them 
into the army, which means the army gets bigger. And it's 
probably getting bigger before it gets smaller.
    The Chairman. Buy them out, in colloquial terms.
    Ambassador Lyman. But also a great many members of the 
armed forces are illiterate and not trained for anything else. 
So just rushing into a demobilization process is not going to 
be good, because then these people will be out there with no 
way to make a living other than to join another militia.
    So what the Government has talked about, and we think is 
the right way to go, is a program which develops a lot of the 
skills within this military, build a much more professional 
Ministry of Defense and oversight, and then engages in a 
program of reduction and demobilization, where people go out 
with skills to be able to make a living. And so we are now 
working with others on this issue of security sector reform. 
And this is exactly the questions we're working on them with.
    The Chairman. Final question. Some people have--well, up 
until now, I think we've provided nonlethal support, some 
military assistance in support of the transformation of their 
security sector. There are some, I won't say it's a huge 
debate, but there is some suggestion that now that they're an 
independent nation, it may be time to consider the provision of 
lethal support, including air defense training, technology, et 
cetera.
    Do you have any counsel to this committee with respect to 
that?
    Ambassador Lyman. We have not made a decision to provide 
any lethal assistance. We are focused very heavily on the 
issues you first raised; that is, how do you develop this into 
a better organized, more professional national military force? 
So we have made no decisions on lethal assistance.
    If we do so or are contemplating it, I want to come back to 
the Congress and discuss that before we make a decision.
    The Chairman. Well, we will welcome you back. We're going 
to stay actively engaged and try to provide some transparency 
to this transition process, and hopefully that can be helpful 
and assist you in the process. And we'll do it, obviously, in 
consultation with you, Ambassador.
    So again, I just want to thank you personally. I need to 
run to another thing.
    Senator Lugar, do you have more?
    Senator Lugar. Ambassador----
    The Chairman. Let me just finish my thought.
    I just want to thank you again for the tremendous work and 
for working so closely with the committee, and we look forward 
to continuing that. Thank you.
    Ambassador Lyman. Thank you, Senator. We are very grateful 
for the interest you have taken on this.
    Senator Lugar. Let me just carry forward a question many of 
us have raised about the lack of a South Sudanese constitution, 
as you try to fill in some of the absence of our understanding.
    Barring a constitution, there is at least a military force 
there. And it's expanding as you have suggested.
    The ordinary observer of this would say essentially that 
the Government right now is the army or the military force. Is 
this true in the sense that there are generals who are leading 
the country? In other words, when trying to describe the 
executive authority in the country, do we simply look at it in 
terms of a military hierarchy at this point?
    Ambassador Lyman. Well, they do have an interim 
constitution, which President Kiir signed during the 
independence day ceremony. It's supposed to be an interim 
constitution. It's supposed to last--it doesn't have a terminal 
date, which is one of the sources of great controversy.
    But the pledge is to have a much more broad-based process 
for developing a permanent constitution. This constitution that 
they've just signed centralizes power quite a bit in the 
Presidency. This is one of the sources of controversy when it 
was developed.
    Many of the leaders in the government are former generals 
who led the liberation struggle, including Salva Kiir himself, 
the President, and a number of the others, and they have a long 
history of having fought. But there are others who are what we 
would call technocrats, people who come with skills in those 
areas.
    But I think this is the transition from drawing heavily, as 
they understandably have, on their military leaders to fill 
these positions, and some of them are extraordinarily good, to 
building a broader-based government that makes a clear 
separation between the government and the military. And that's 
going to be part of what security sector reform and 
constitutional reform should do.
    Senator Lugar. Is there a basis that, as we witness this 
process unfolding, we could observe 3 or 4 years from now that 
essentially this Government looks much like those governments 
involved in the so-called Arab Spring? And by that, I mean the 
presence of a strong man or woman, as the case may be, who is 
not prepared to give up authority, and is surrounded by a 
subservient military. And if so, what will be the debate in our 
country as to what we have supported or helped produce, in this 
case?
    Ambassador Lyman. I think the challenge--I think we have to 
really stay very close to these issues with the Government in 
South Sudan, because it's very tempting, when you're the 
overwhelming political as well as military force in the 
country, to just run it as a quasi one-party state, and see any 
challenges to you as something to push back on. And that's a 
challenge.
    And we have NDI there and other organizations that we want 
to work with them closely to not let them go down that path. 
They talk about it. They're very conscious of it. They're aware 
that this is going to be a big challenge for them.
    But I think we have to keep those issues in our dialogue. 
It's political openness. It's fairness to allowing new 
political forces to develop. It's human rights culture. And I 
think that has to be on our agenda all the time.
    Senator Lugar. Now we just touched upon oil and 
agriculture, but let me carry this a little bit further. One of 
the points often made about the recent Egyptian experience was 
not just simply the young people in Tahrir Square, but the fact 
that there were millions of people throughout the country who 
very much lacked food this year. With the price of wheat having 
doubled, and Egypt dependent upon us, the United States, for 52 
percent or 55 percent of their wheat, the amount of so-called 
subsidies, money disbursed out into the countryside, was 
inadequate. And, therefore, a lot of the revolt really came 
from people who were hungry.
    Now here we're dealing with a South Sudan that we hope will 
develop an agricultural base. That can be true in the North and 
the South, for that matter, Darfur aside. But there's only 
limited evidence of this at least thus far. And furthermore, as 
the Norwegians have suggested, you mentioned this, the oil may 
run out. So a crucial question for South Sudan, even if they 
get it right constitutionally, is how are people going to make 
a living there? Are projects focused entirely on agriculture 
development? Or is there any potential industry of any sort?
    Ambassador Lyman. The food problem is true of both the 
North and the South. Food prices have been rising. There's been 
a weakening of the currency, the Sudanese pound, which has 
raised the price of imported food. The South, which is 
dependent on the food coming from the North, as well from the 
South, is also faced with very high prices on food. This is, in 
my view, a very situation that both countries really have to 
deal with.
    And the investments in Sudan, the northern part, have not 
kept pace in food and should have.
    In the South, you just don't have a lot of organized 
production, because of the displacement in the war. When you 
fly over it, again, you look for farms. You don't see very 
many.
    Agriculture should absorb opportunities for most people. 
But there are mining opportunities. There are even some tourism 
opportunities, because they discovered a huge amount of 
wildlife along the Nile in the South. It's that potential, but 
you have to develop all the infrastructure for it.
    But I think in the South, agriculture is going to be very 
critical, and it's going to make people more self-sufficient 
and reliable. It's going to cut down the need for food imports, 
which they now rely on heavily. And then there are, as I say, 
mineral, other mining
and other opportunities. Industry, maybe, if the infrastructure 
improves.
    If they join the East African Union, which they're talking 
about, or COMESA, it does open up the opportunity for a bigger 
trading area. But I think their ability to profit from that is 
going to depend on developing more infrastructure and capacity.
    Senator Lugar. Now, maybe this is for another hearing at 
some point, but on the----
    The Chairman. Let me just say thank you very much.
    Ambassador Lyman. Oh, thank you very much, Senator.
    The Chairman. And I'll see you on the trail.
    Ambassador Lyman. OK, thanks.
    Senator Lugar [presiding]. I'll conclude in just a moment.
    Ambassador Lyman. Oh, sure, any time.
    Senator Lugar. Essentially, one of the dilemmas in the 
development of agriculture in many African countries, leaving 
Sudan out of it altogether, has been this disagreement between 
the United States and our European friends on so-called 
genetically modified seed or procedures. And there still is a 
debate in Brussels.
    The Gates Foundation and the Department of Agriculture have 
pointed out that if one is looking for the kinds of yield 
increases that have made agriculture a very different situation 
in the United States, so-called genetically modified seed and 
procedures present a very viable option. I've seen the results 
of this on our own farm, my dad getting 40 or 50 bushels to the 
acre of corn, whereas we're now getting 170.
    And this is why, as we take a look at the international 
involvement in Sudan, I'm hopeful that somehow a humane streak 
will come over all of us, Europeans as well as the United 
States, because otherwise the possibility of getting the kinds 
of yields that are going to be required to support that 
population are pretty distant.
    Now leaving aside all the other reasons for conflict, the 
most essential reason people may fight is a lack of food and 
the threat of widespread starvation. So I'm not putting too 
grim a note on my final question, and I'm hopeful that in our 
delegation to South Sudan, there are people who will be able to 
convince our partners of our position on this matter. This is 
important with regard to not only South Sudan, but really all 
of the assistance we're giving to all African countries 
presently.
    Ambassador Lyman. Well, you touched on an issue on which I 
have rather strong feeling, but I don't know what the U.S. 
Government position is. But frankly, I think that debate has 
not been fair to Africa. And Paul Collier, the author of ``The 
Bottom Billion,'' wrote an article in Foreign Affairs not long 
ago making the same point that you did and which I agree with, 
is that there are opportunities in this technology for Africa 
that may be vital and essential, and they ought to have the 
opportunity to develop those.
    So I happen to feel that way, too. I'll have to check with 
others to see where the U.S. Government is.
    But Raj Shah, our USAID administrator, told me that in his 
visit to southern Sudan, the technology that we could introduce 
today would have a dramatic effect on the yields in southern 
Sudan. He's very optimistic that we can do that, and he's very 
focused on it. I hope you get a chance to talk to him, because 
he came back enthusiastic.
    Also the Minister of Agriculture, Anne Itto, in South Sudan 
is terrific. And she's heavily focused on these opportunities.
    Senator Lugar. This is great news. Both Raj Shah and the 
new secretary of agriculture in South Sudan appear to be on the 
right track when it comes to benefiting of the people of the 
country as well as formenting some degree of peace.
    Well, I join the chairman once again in thanking you so 
much for your coming today. This has been a very important 
hearing, and you've given very important and encouraging 
testimony to us.
    Ambassador Lyman. Well, thank you. It's a great privilege 
always to be before you, Senator Lugar.
    Senator Lugar. And I will conclude by saying the hearing is 
adjourned.
    [Whereupon, at 12:06 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


   Prepared Statement of Bishop Andudu Adam Elnail, Episcopal Bishop
                    of the Diocese of Kadugli, Sudan

    It is devastating and saddening, as a church and community leader, 
to know that my people of Southern Kordofan--friends, brothers and 
sisters, children, my flock--have been killed mercilessly and are lying 
now in mass graves in Kadugli. To me, these people are not numbers and 
statistics but people I interact with in the market, in the church 
pews, in schools and villages.
    I ask the world, Open your eyes and your heart for the suffering of 
the people of South Kordofan, not only Christians, but my Muslim 
brothers and sisters who are facing the same.
    My sincere request to the United States and to the larger 
international community is to:
    Protect the Nuba people and stop the Sudan Armed Forces planes that 
are bombing the civilians.
    Send an effective peacekeeping force to monitor the situation, as 
serious new negotiations have to start to bring freedom and lasting 
peace for all marginalized people in Sudan.
    Send humanitarian organizations to bring food, medicine, and aid to 
the tens of thousands of displaced civilians.
    I hope that the sources of the evidence, the eyewitnesses, will be 
protected, and the evidence of mass graves preserved and fully 
investigated to seek justice for the slaughter of an untold number of 
civilians.
    At this the time, I call all marginalized people to unite for peace 
and reconciliation, to stop this state-sponsored ethnic cleansing 
campaign, and to show the strength and unity that comes from a respect 
for our diversity.
                                 ______
                                 

                Prepared Statement of the Enough Project

    Thank you Chairman Kerry and Ranking Member Lugar for holding 
today's hearing at this critical moment for the two Sudans and allowing 
the Enough Project to submit this statement for the record. Through 
policy recommendations to the U.S. Government and the building of a 
permanent constituency concerned with genocide and crimes against 
humanity, the Enough Project hopes to play a role in the international 
effort toward securing peace in both Sudans. This statement for the 
record urges Members of Congress to recognize the insecurity that 
prevails in Sudan after secession and that a change in current U.S. 
policy is needed to bring lasting peace. The U.S.'s current strategy 
incorrectly treats Sudan's multiple conflicts as disparate crises and 
must shift to a more comprehensive approach that recognizes these 
conflicts as symptoms of the same crisis of governance in Sudan today.
                                summary
    Two new states--not one--joined the ranks of the international 
community on July 9, 2011, the day that marked the official 
independence of South Sudan from the remaining northern two-thirds of 
the country. Much attention has been focused on the obstacles that the 
new South Sudan will face. Less has been said of the fragility and 
potential for mass conflict that exists in what will be left of Sudan 
itself, and the policy changes needed to address this reality.
    Since its independence, Sudan has experienced more years of 
violence than peace. Decades of misguided government policies under 
multiple regimes have economically and politically favored the Arab 
Riverine people while trying to impose a singular Arab-Islamic identity 
over what is an ethnically, religiously, and culturally diverse 
population. In the process, many communities have been left aggrieved 
and disenfranchised, which on numerous occasions has triggered violent 
rebellion, particularly on Sudan's peripheries. But instead of 
political reform or decentralization of power, Sudanese governments 
have consistently employed a strategy of divide and conquer, often 
accompanied by violent oppression. The consequences of these tactics 
were most vividly illustrated by the human devastation of the genocide 
in Darfur and the North-South civil war, and continue today in the Nuba 
Mountains. More generally, this strategy has resulted in a chronically 
unstable Sudanese state, a situation that secession does not change.
    The international community's robust push for southern 
independence, while successful, has been the continuation of a 
longstanding piecemeal approach to Sudan that addresses the symptoms, 
rather than the root causes of the country's conflicts. Such an 
approach, marked by multiple peacekeeping missions and peace talks, has 
not achieved lasting or comprehensive peace throughout all of Sudan.
    The international community must rethink its strategy vis-a-vis the 
North by pushing for a comprehensive approach that is inclusive of all 
of Sudan's regions and addresses the national issues that lie at the 
heart of all of Sudan's fissures. The fundamentally similar grievances 
that exist across Sudan's peripheries must be addressed on the national 
level, starting with an inclusive constitutional process that brings 
talks taking place between the government and these peripheral 
communities into a single conversation. Without this necessary shift in 
policy, sustained peace and stability in both Sudans and the larger 
region will be impossible.
    Southern secession ushers in an opportunity to begin to do this. 
The confluence of heightened economic pressures and political energy 
represents a moment of political reconfiguration in Sudan which could 
force the ruling National Congress Party, or NCP, to rethink its 
strategy going forward. The international community should do the same.
        pockets of instability and human insecurity across sudan
    Even with the secession of the South, Sudan continues to be plagued 
by multiple conflicts within its borders, as well as the potential for 
new conflicts to emerge. The most volatile of these in recent years 
have been the conflicts in the western region of Darfur, and in the 
Nuba Mountains region of South Kordofan state. The eastern and far 
northern areas of Sudan have previously organized formidable opposition 
movements to the regime, but these regions have remained relatively 
calm in recent years. Given the divisions that Khartoum has sowed among 
its population and its precarious economic situation, there is a chance 
that the number of conflicts within the North could increase.
    Years after George W. Bush's administration first called the 
government-instigated violence in Darfur a genocide, this western 
region of Sudan continues to experience insecurity. Between December 
2010 and March 2011 alone, the U.N. recorded over 70,000 Darfuris who 
were newly displaced, while over 80 government aerial attacks against 
civilian targets have already been documented so far this year. With 
the abandonment of the 2006 Darfur Peace Agreement, the continued 
failure of peace negotiations in Doha, and the further splintering and 
realignment of rebel groups, it does not appear that the violence 
suffered by civilians will end any time soon.
    In June, fighting between government forces and northern fighters 
previously allied with the Sudan People's Liberation Army, or SPLA, 
erupted in the border state of South Kordofan, following disputed 
elections and attempts by the northern Sudanese army to forcibly disarm 
the aggrieved fighters. Fighting, marked by indiscriminate air attacks, 
has spread throughout the state, displacing a reported 73,000 people. 
Reports coming from the ground indicate that government forces are 
targeting civilians along ethnic and political lines, committing 
summary executions, and conducting house-to-house searches for 
opposition sympathizers. Humanitarian access to vulnerable populations 
remains limited.
    Other budding flashpoints have the potential to erupt into new 
conflicts as fractures between communities historically aligned with 
Khartoum and the government have grown. For example, disillusion with 
the government has spread among the nomadic Misseriya, many of whom 
were employed by the Sudanese Government as militias during the North-
South war. The signing of the Comprehensive Peace Agreement, or CPA, 
and the accompanying loss of government favor, left many Misseriya with 
a growing sense of abandonment and estrangement from the government. 
Recent reports of intense recruitment of Misseriya by the Justice and 
Equality Movement, or JEM, a Darfuri rebel group, signal the potential 
flashpoint that members of the Misseriya could pose should the 
perception of marginalization by the government prevail.
    Economic pressures on the North may result in the unraveling of a 
NCP-headed patronage system that has helped the party maintain power in 
its own and select constituencies' hands. Cuts to the North's 
expenditures means that support for the NCP may falter in some 
quarters--especially among those constituencies in the peripheries that 
have been NCP allies despite the regime's treatment of their regions--
and open up new sources of grievances to manage. Citing an incident in 
which a Darfur state governor threatened violence after the amount of 
federal money disbursed to his state had significantly been cut, the 
International Crisis Group offers this assessment: ``[I]f the [NCP] 
loses the ability to provide benefits,'' profiteers of the patronage 
system ``could easily abandon it. (. . .) Disagreements over resource 
allocation of many kinds are becoming extremely divisive (. . .).'' 
Other measures taken to soften the economic blow have also stirred up 
unrest. Austerity measures, such as cuts to key subsidies, led to 
scattered protests in early 2011. Khartoum's faulty efforts at 
reinvigorating its agricultural sector as a means of generating non-oil 
revenue has in some cases led to increased dissatisfaction among 
farmers.
                       same regime, same tactics
    Sudan will continue to be governed under the same regime that views 
stoking the peripheral unrest as its preferred means of ensuring 
personal survival, and has overseen nearly perpetual violence against 
its own population. The actions and words of the Khartoum regime in 
recent months offer little indication that the leadership will move 
toward a more inclusive strategy that addresses current and future 
dissent with genuine engagement rather than oppression, violence, and 
co-optation.
    An undemocratic vision of Sudan
    In mid-December, President Bashir announced that if southern 
secession took place, Sharia would continue to be the source of law and 
that ``there will be no time to speak of diversity of culture and 
ethnicity.'' This vision of Sudan sits at odds with the patchwork of 
varying religions and tribes in the country and threatens the many 
minority communities who do not identify with or support Bashir's 
version of an Arab-Islamist state. Bashir's words suggest that the 
regime will continue to pursue policies that favor the NCP's 
interpretation of political Islam and concentrate political, economic, 
and military power among the northern Riverine elite, further fueling 
the roots of conflict in Sudan.
                     violent management of dissent
    The Sudanese Government continues to silence political dissent 
using brutal tactics. Scattered protests since January across major 
cities in Sudan have been met with force by the regime's omnipresent 
and sophisticated security apparatus. Arbitrary arrests and beatings 
are consistently employed to put an end to demonstrations; detainees 
have come forward to describe the severe psychological and physical 
torture committed by members of the government security services, 
including harsh beatings, electric shocks, sexual assault, and threats 
of those violent acts. The NCP defends its actions by invoking the 
state of emergency law, which is still in place in Darfur, Kassala, and 
Red Sea states, as well as the National Security Act, which was put in 
place in 2009. The state of emergency has been repeatedly used by the 
government as a means to arbitrarily arrest and detain people 
incommunicado, as well as to ban gatherings and peaceful demonstrations 
that may be political in nature. The National Security Act grants 
sweeping powers to the National Intelligence and Security Services, or 
NISS, including to arbitrarily arrest and detain, and to search and 
seize. Together, they allow the government to effectively intimidate or 
silence those who might speak against it.
    Across Sudan's restive regions, the regime also uses military means 
to respond to what are fundamentally social and political problems--
even while peace processes remain an option. Indiscriminant air 
attacks, targeting of civilians based on political sympathies and 
ethnic affiliations, manipulation and obstruction of international 
humanitarian assistance, and the use of proxy militias to sow divisions 
between long coexisting communities, continue to be committed by 
Khartoum's forces in Darfur and South Kordofan. In South Kordofan, 
serious allegations of a government policy of ethnic cleansing have 
emerged.
                         political machinations
    Khartoum continues to disingenuously engage in peace processes 
related to Sudan's various conflicts, be it through the 
nonimplementation of agreements it has already signed or through the 
manner of its participation in currently ongoing talks, such as those 
regarding Abyei, post-referendum issues, Darfur, and the ``Two Areas,'' 
South Kordofan and Blue Nile.
    During the Darfur peace negotiations in Doha, Khartoum sent 
representatives lacking decisionmaking authority and put in place plans 
to domesticate the peace process, in order to manipulate the talks and 
undermine international involvement. At present, the NCP is pushing for 
the Liberty and Justice Movement, or LJM, to sign a draft document that 
has no hope of securing peace, but that will undoubtedly advance the 
government's plans to push the international community out of the 
process.
    Despite ongoing negotiations to break the impasse on Abyei, the 
Sudanese regime forcibly occupied the region, strengthening its 
bargaining position vis-a-vis other post-referendum issues and creating 
an environment in which the holding of a referendum, or any other kind 
of negotiated resolution, would be impossible with the SPLM. Similarly, 
Khartoum allowed its military to engage in hostile actions against the 
northern sector of the Sudan People's Liberation Movement, or SPLM-N, 
even though the CPA provisions for South Kordofan and Blue Nile had not 
been fulfilled and the African Union, or A.U., was already in the midst 
of negotiating the status of those fighters after secession.
    International mediators have often played into the hands of the NCP 
by allowing Khartoum to constantly change the rules of the game. In 
Darfur, for example, the government has been pushing for an internal 
``Darfur Political Process'' as the only forum for talks despite the 
importance for negotiations to take place on neutral and secure ground. 
This idea has received support from some members of the international 
community, even though it remains incredibly impractical at this time. 
In talks on Abyei, the A.U. has consistently failed to press the NCP to 
make the necessary compromises, either on the definition of ``Abyei 
resident'' in order to hold the referendum, or when an exhaustive list 
of extra-CPA solutions were put on the table. Further, through its May 
invasion of the area, the government has successfully changed the 
conversation from the status of Abyei to the more immediate problem of 
securing SAF's retreat, thus delaying negotiations on the most crucial 
issues.
    Khartoum's political machinations are also well-documented in its 
management of the April 2010 elections, and its questionable 
involvement in the South Kordofan elections in May. In Darfur, long 
before the April elections, for example, the NCP had changed the 
political reality on the ground in Darfur by manipulating the census 
and registration processes, and redrawing electoral districts in its 
favor.
                          a situation in flux
    South Sudan's secession will produce two fragile states that demand 
the continued attention of the international community. In the North, a 
period of political maneuvering is taking place alongside a number of 
critical processes that will help shape the state that Sudan becomes 
after secession. The international community should seize upon this 
window of opportunity--as the Sudanese leadership recalculates its 
relationship to its constituencies, its allies, its opponents, and the 
international community--to encourage the regime to engage in genuine 
dialogue with its population and move toward more inclusive governance, 
for the sake of its own stability and its future relationships with 
other countries.
    Post-secession economic woes and increasing political pressures 
have necessitated a rethink within the NCP. Economic pressures 
resulting from the loss of oil revenues associated with secession could 
lead Khartoum to greater engagement with the West, resulting in greater 
international leverage over Khartoum's actions. At the same time, 
hardliners within the NCP have reportedly strengthened relations with 
Eritrean officials, cooperating in the trafficking of weapons through 
eastern Sudan for financial compensation. Some of those routes 
reportedly end in Gaza and begin in Tehran, adding Iran to the list of 
parties disinterested in the normalization of Sudan's relations with 
the larger international community, and especially the U.S. 
Politically, the NCP is also under pressure from some constituencies 
for its decision to let go of the South. A number of recent decisions 
made by the government--military invasion and occupation of Abyei, the 
sacking of former security advisor Salah Gosh, considered a moderate 
among Bashir's top associates, and attacks in South Kordofan--suggest 
that at the moment the NCP is intent on appeasing hardliners in the 
party and the military.
    The South's secession has also prompted political posturing by 
opposition parties in the North seeking to fill the open seats in 
government left by the SPLM. In early 2011, a number of mainstream 
opposition parties came together as the National Coalition Front, or 
NCF, and called for a constitutional conference and a number of 
reforms, threatening regime change if those demands were not met. 
Although the coalition has issued the occasional public statement 
together, it has largely fragmented. In particular, the mainline 
opposition parties the Umma and the Democratic Union Party, or DUP, 
have entered into separate bilateral talks at the invitation of the 
NCP, undercutting the leverage that opposition unity might have posed, 
to the ire of other members.
    Dialogue between the Umma and the NCP appears to have yielded 
progress on a number of key issues. Despite this progress, however, it 
is unlikely that talks will result in any kind of dramatic reform or 
political transformation. The Umma and the DUP appear to be more 
interested in what share of the government they can acquire--which 
depends on cooperation with the NCP--than in any substantive changes to 
how Sudan is governed. The NCP's main concern appears to be 
accommodating these parties just enough to quell their dissent while 
maintaining its grip on power. More radical change is dependent on 
clear alternative political agendas, which the traditional opposition 
parties appear to lack, as well as the space for voicing differing 
perspectives, which the government prevents.
    In January, it seemed that the revolutionary fervor that had hit 
Tunis and Cairo would spread to Khartoum. Sudanese youth led protests 
against the regime and opposition parties, in cities and universities 
across the North in a sign of growing frustration with the entire 
political status quo. Scattered protests against austerity measures 
instituted by the government, the conflict in Darfur, and government 
attempts to take land without compensation, have also taken place. Thus 
far, protests have had little traction, because government security 
forces have swiftly crushed the demonstrations.
    The government is also faced with militant groups on the periphery, 
such as those in Darfur and South Kordofan, who recognize the links 
between violence in their regions and broader government policies and 
are therefore incorporating calls for national reforms into their 
negotiating positions. For instance, the JEM has called for ``the 
effective participation of Darfur and all other Regions of Sudan in 
decisionmaking'' on wealth-sharing. Similarly, one of the principles 
listed in the framework agreement outlining the path to peace for South 
Kordofan is ``[a] commitment to balanced development in all parts of 
Sudan with special attention to Blue Nile, South Kordofan, and other 
less developed areas.'' This is followed by the assertion that the, 
``[p]arties shall work together toward an inclusive national process in 
the Republic of Sudan, aimed at constitutional reform.''
                 rethinking sudan's multiple processes
    A number of political processes have been underway in recent years 
that have the potential to begin to address the root causes of Sudan's 
perennial instability. These processes--popular consultations in Blue 
Nile and South Kordofan, peace talks and civil society consultations 
for Darfur, and a constitutional review--are ideally forums in which 
the wider Sudanese public and the various levels of government can 
engage in a conversation on how the new Sudanese state should be run. 
Without international engagement, the likelihood that the government 
will participate in these processes genuinely or allow these processes 
to be inclusive and transparent, is slim.
            the ``two areas'': south kordofan and blue nile
    Popular consultations in Blue Nile and South Kordofan are exercises 
meant to ascertain whether the citizens of the two states are satisfied 
with their peace protocol in the CPA. The protocol lays out how these 
two areas, recognized as unique territories, should be administered--
including, among other items, how power and wealth are shared between 
the federal government and the two states, and how land is managed. If 
the consultations ultimately demonstrate that residents are 
dissatisfied with the provisions in place, the states' legislative 
assemblies can renegotiate with the government the terms of the states' 
relationship with the center. Consultations have stalled in Blue Nile 
and been upended by the return to war in South Kordofan, but they 
should continue after July 9 according to the framework agreement 
signed between the NCP and SPLM-N on June 28.
    Internationally supported negotiations at the political party 
level, between SPLM-N and the NCP, will also be ongoing. Aside from 
securing a cease-fire and political arrangements amenable to both 
parties in South Kordofan, talks will likely touch on the relationship 
between the two states and the center, and the role the SPLM-N is 
allowed to play in the constitutional review.
                                 darfur
    Negotiations in Doha between rebel groups and the government have 
been ongoing since February 2009. The content of the talks have 
included, among other things, the level of political power given to the 
region on the national stage, the distribution of wealth, issues of 
justice and reconciliation, and issues affecting the displaced, such as 
their return, land, and compensation. Currently, only two rebel groups, 
JEM and LJM, out of a number of other groups engaged in fighting, are 
participating in the talks. In April, international mediators put 
forward a draft agreement that some observers believe is a weak 
document whose provisions will be unenforceable. The NCP is encouraging 
LJM to sign the agreement, while JEM has put forward its own draft 
document in response, which has been rejected by the NCP.
    At the same time, the Sudanese Government, the A.U., and the AU-
U.N. Mission in Darfur, or UNAMID, are pushing for the continuation of 
the peace process inside Darfur, which would consist of consultations 
with Darfuri citizens without rebel representation. This comes in the 
wake of the All Darfur Stakeholders' Conference, which brought 
approximately 500 Darfuri leaders to Doha to express their views and 
concerns about the peace process, and to gain their buy-in for the 
draft peace document. Although the participants were allowed the unique 
opportunity to publicly vent their frustrations, the government's 
continuing control over stakeholder participation and its refusal to 
discuss Darfur in the context of wider Sudanese issues, suggest that 
the potential for the stakeholder conference to lead to significant 
change was limited from the outset and the potential for any internal 
process to bear fruit at this time is virtually negligible.
                         constitutional review
    The interim constitution that has governed Sudan since the signing 
of the CPA needs to be replaced with a permanent constitution. Under 
the CPA, the constitution should be the result of a review process that 
``provide[s] for political inclusiveness and public participation.'' 
Among other key details, the language of the text should define the 
structure of the Sudanese Government, the source of legislation in the 
country (currently Sharia and customary law), citizenship, and the 
rights of the Sudanese population. The document should also touch 
deeply on those issues that have become important in discussions in the 
peripheries--including how to draw the administrative regions of Sudan 
(15 states or 6 regions), define the type of federalism or relationship 
that should be in place between states and the center, and lay out how 
wealth is distributed throughout the country.
    The process of drafting and approving the document is as crucial as 
the text of the constitution itself. Civil society groups representing 
all 15 states in the North have come together to collectively call for 
a ``participatory, inclusive, and transparent constitution-making 
process'' and a ``nationally owned nationally respected constitution 
that reflects the needs and aspiration of the people of Sudan.'' The 
coalition also highlighted the need for wide civic education to be 
conducted in order for dialogue to be substantive and genuinely 
participatory. A transparent, participatory, and inclusive Sudan-wide 
dialogue on its future constitution should be viewed as an important 
means of empowering the Sudanese people to decide the future of their 
state.
    In May, the government floated vague details of a constitutional 
review process during a U.N. meeting that appears to fall well short of 
the mark. During the meeting, government officials revealed that a 
``National Committee'' for constitution-making would be created, 
consisting of 300 to 400 members nominated by the President. Political 
parties and civil society would be allowed to participate, though 
remarks by officials at the time suggest that the selection of who gets 
to participate and with what degree of representation would be 
government-controlled. The committee would be charged with holding 
consultative meetings--likely only one per state--followed by a 
referendum on the final draft. Participants in the meeting predicted 
that the mandate of the committee would be very broad given officials' 
preliminary descriptions, and noted that officials voiced skepticism 
over wider consultations with the public because of the financial 
costs. Officials proposed a 
4-month timeline, beginning after July 9, for the review.
    Thus far, opposition parties have mistakenly only focused on the 
content of the future constitution, rather than engaging with the 
government on the review process itself. Some parties have demonstrated 
no clear vision on an ideal process, and have appeared disorganized and 
vague in their response to the government's proposed plans.
    Talks in Doha have, to some extent, led to a larger conversation 
about the need for national reform. However, the government, in 
response, has expressed its unwillingness to address these nationwide 
issues through its Darfur negotiations. Instead, it has pushed for a 
Darfur-based process that, even in its most perfect form, would not 
even begin to address the broader policies of Khartoum that led to 
regional unrest in the first place.
    The framework agreement signed between the NCP and the SPLM-N on 
June 28, stated that, ``The Popular Consultations Process is a 
democratic right and mechanism to ascertain the views of the people of 
Southern Kordofan and Blue Nile and shall be complete and its outcomes 
fully implemented and fed into the constitutional reform.'' While 
undoubtedly an encouraging sign, the document itself is simply a 
``framework,'' not a binding agreement.
                       one process going forward
    The merits of holding separate tracks of negotiations on top of a 
national process, which in theory would address many of the same 
issues, should be reexamined. Fundamentally, grievances in Darfur, Blue 
Nile, and South Kordofan are based on questions of how power and wealth 
is distributed throughout Sudan, which in turn tie to questions of 
Sudanese identity and the relationship between the country's diverse 
communities. These questions are not exclusive to Darfur, South 
Kordofan, or Blue Nile; they are national issues that can only be 
genuinely addressed at the national level.
    The plurality of processes, while seemingly all-encompassing, poses 
a challenge to the future of Sudan.The danger is that separate 
consultations will ultimately pit peripheries, all claiming pieces from 
the same pie, against each other. Additionally, discussing national 
issues with select regional actors has the potential to encourage other 
regions to agitate for their own unique relationship with the center. 
For example, discussions on wealth-sharing in South Kordofan and Blue 
Nile have reportedly piqued the interest of the state government in 
another northern state, Sennar, to negotiate a better wealth-sharing 
deal itself. This is especially threatening under the watch of a regime 
that has long mastered the art of sowing divisions between its various 
constituencies.
    The recognition that a national dialogue is needed to address the 
root causes of Sudan's crises is not a new concept. In an effort to 
create a New Sudan, in 1986 a large number of Sudanese political 
parties and civil society representatives issued a declaration that 
proposed a National Constitutional Conference, which would discuss 
questions of Sudanese nationality, religion, human rights, system of 
rule, and culture. More contemporary models are also worth examining. 
For example, the popular consultations that have taken place in Blue 
Nile could be replicated on a wider scale as a means to engage with the 
Sudanese public on the draft of a constitution.
    How talks in the peripheries can feed into, or are at least 
coordinated with a national process is a complicated task, one that 
will require the juggling of multiple agendas and personalities. On the 
one end, the processes in Darfur and the two areas could be completely 
scrapped in favor of a new, nationwide process that brings everyone to 
the table. On the other, the different tracks could continue to proceed 
in parallel, followed by last-minute efforts to reconcile and 
coordinate the resolutions of each. Another option that has also been 
proposed, is to continue the discussion on issues particular to the 
regions in regional talks, while separating out national questions for 
discussion at the national level.
              recommendations for international engagement
    The international community must be smarter in its engagement with 
Khartoum after July 9, shifting its strategy to one that reframes the 
country's multiple conflicts as manifestations of the same disease: 
government policies that concentrate wealth and power at the center at 
the expense of the people on the peripheries. While the United States 
has been a critical actor in the history of international diplomacy 
with Khartoum, Washington's hand will be constrained in pushing for a 
national reconciliation process. As a result of its own policy that was 
unveiled in November 2010, the U.S.'s biggest points of leverage are 
tied to the implementation of the CPA and a resolution to the conflict 
in Darfur. U.S. officials have also shown reluctance toward the 
inclusion of national issues in the Darfur talks, citing doubts over 
rebel movements' sincerity to push for a broader agenda, as well as the 
Sudanese government's own unwillingness to discuss national issues in 
that context.
    Nevertheless, the U.S. can begin to engage in the peace processes 
for Darfur and the Two Areas as pieces of a necessary national process, 
rather than as end goals unto themselves. A strategic rethink beginning 
in the U.S. Special Envoy's office is necessary to examine some 
critical questions: How does the U.S. approach Sudan as a whole? And 
how can the separate processes be sequenced to feed into a national 
process?
    In its public and private communications to Khartoum, as well as 
international actors with influence over the regime, it is important 
that the U.S. conveys its expectations of a participatory, inclusive, 
and transparent constitutional review process. Particular emphasis 
should be placed on the quality of the process, not just its outcome. 
Support for a constitutional review should be accompanied by U.S. and 
international pressure on Khartoum to create an environment conducive 
to genuine dialogue including greater respect for human rights. This 
pressure can and should be enhanced by U.S. support for and engagement 
with civil society and political parties, as well as its support for 
initiatives that foster independent media in Sudan, such as Radio 
Dabanga.
    The U.S. must continue its diplomatic response to the ongoing 
crisis, which should be centered around pressure on Khartoum to protect 
its civilians, and a push for a cease-fire in South Kordofan. 
Consistent with stated Sudan policy, steps toward normalization should 
be suspended absent progress on the ground. The expansion of targeted 
sanctions and other unilateral and multilateral consequences for 
individuals responsible for fomenting war in Sudan can and should form 
an integral component of this effort. Going forward, however, the 
deployment of such pressures--or any other diplomatic tools--must 
secure more than just another regional peace agreement; it should be 
used to advance the greater goal of laying the foundation for 
sustainable peace throughout the whole of Sudan.

                                  <all>

</pre></body></html>
